<html>
<title> - ASSESSING THE FRAMEWORK AND COORDINATION OF THE NATIONAL EMERGENCY COMMUNICATIONS PLAN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  ASSESSING THE FRAMEWORK AND COORDINATION OF THE NATIONAL EMERGENCY 
                          COMMUNICATIONS PLAN

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2008

                               __________

                           Serial No. 110-125

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE
44-766 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

Loretta Sanchez, California          Charles W. Dent, Pennsylvania
Norman D. Dicks, Washington          Mark E. Souder, Indiana
Nita M. Lowey, New York              David Davis, Tennessee
Eleanor Holmes Norton, District of   Tom Davis, Virginia
Columbia                             Candice S. Miller, Michigan
Donna M. Christensen, U.S. Virgin    Peter T. King, New York (Ex 
Islands                              Officio)
Bob Etheridge, North Carolina
Bennie G. Thompson, Mississippi (Ex 
Officio)

                  Veronique Pluvoise-Fenton, Director

                        Nichole Francis, Counsel

                         Daniel Wilkins, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     3

                               Witnesses

Honorable Robert D. Jamison, Under Secretary, National Protection 
  and Programs Directorate, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Mr. Chris Essid, Director, Office of Emergency Communications, 
  Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................     6
Mr. Richard Mirgon, Director, Technology Services, Douglas 
  County, Minden, Nevada on Behalf of the Association of Public-
  Safety Communications Officials (APCO) International:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Chief Charles L. Werner, EFO/CFO, Charlottesville, Virginia, Fire 
  Department:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. Michael L. Alagna, Director, Homeland Security, Strategic 
  Initiatives and Policy, Motorola, Inc.:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                                Appendix

Questions From Ranking Member Charles W. Dent....................    49


  ASSESSING THE FRAMEWORK AND COORDINATION OF THE NATIONAL EMERGENCY 
                          COMMUNICATIONS PLAN

                              ----------                              


                         Tuesday, July 15, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[Chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Dicks, Lowey, 
Christensen, Etheridge, Dent and Miller.
    Mr. Cuellar. Good morning. The Subcommittee on Emergency 
Communications, Preparedness and Response will now come to 
order. The subcommittee is meeting today to receive testimony 
regarding assessing the framework and the coordination of the 
National Emergency Communications Plan.
    Again, good morning to all of you all for being here with 
us. On behalf of the Members of the subcommittee, let me 
welcome our witnesses from the Department of Homeland Security, 
the State and local governments, the first responders community 
and the private sector.
    At the outset, I would like to again express my concern 
about the timeliness of receiving the witnesses' testimony, in 
particular the Department of--the Homeland--the committee rule 
requires that we receive testimony 48 hours in advance of the 
hearing so Members will have ample time to review and develop 
the follow-up questions. I hope this rule will be honored in 
the future.
    On a positive note, today's hearing will give the witnesses 
an opportunity to discuss emergency communications and the 
first-ever stand-alone interoperable grant program that the DHS 
authorized in Public Law 110-53, the Implementing the 
Recommendations of the 9/11 Commission Act, or more simply 
known as the 9/11 Act.
    Since 2003, the Department of Homeland Security has awarded 
approximately $9.5 billion to State, territories, local and 
tribal governments to help them strengthen their preparedness 
and responsibilities before, during and after an incident. Of 
that amount, $2.9 billion has been spent on emergency 
communications, making it the single largest use of grant 
dollars. Although an impressive amount, the reality of the 
situation is that addressing the Nation's emergency 
communications system may range from $60 billion to $100 
billion.
    In order to ensure that these grant funds are being spent 
in a way that advances interoperable emergency communications, 
Congress required the Department of Homeland Security to 
complete a National Emergency Communications Plan, the NECP, as 
a condition to distributing those interoperability grants to 
recipients. The NECP is the principal document that 
incorporates the Federal, the State, the local, the tribal and 
the private sector input to define national goals, specify 
objectives, recommend solutions, identify shortfalls and 
provide a roadmap for achieving emergency communications for 
the purposes of the parties and the public in general.
    The NECP was originally due to Congress on April, 2008. 
Unfortunately, the Department of Homeland Security missed a 
critical deadline in large part due to the fact that DHS did 
not hire a permanent director for the Office of Emergency 
Communications until December 2007. In anticipation of the 
NECP, as was promised by DHS to reach Congress this month, the 
subcommittee proposed a hearing to both congratulate DHS on 
meeting a critical deadline and to provide Congress an 
opportunity to review the plan. Unfortunately, this last 
Friday, I was told that the NECP, although completed by the 
Department, it is still under review by the Office of 
Management and Budget.
    As you know, I represent Laredo, Texas, a border community 
which would greatly benefit from effective coordination among 
the Federal, State and local players. Clearly, the NECP would 
go a long way to advance communication goals for the first 
responders, as well as CBP, which both play major roles in 
responding to border security-related threats and emergencies.
    I am very concerned that this additional setback of the 
NECP may delay the receipt of the fiscal year 2008 
Interoperability Emergency Communications Grant Program, the 
IECGP, which as you know ends on September 30. My own State of 
Texas is anticipating the allocation of $3.5 million. The 
delayed submittal of the NECP is yet another example of the 
State and local governments meeting the federally imposed 
deadline only to have the Federal Government not meet their own 
deadlines.
    So to move on with this hearing, I look forward to hearing 
from Under Secretary Jamison on what the NPPD has done to 
support the Office of Emergency Communications, more commonly 
known as the OEC, and the furtherance of the NECP.
    Mr. Essid, this subcommittee is looking forward to learning 
about your coordination efforts to develop a statutorily 
mandated NECP and the next steps to advancing national 
emergency communications at all levels.
    Mr. Mirgon and Chief Werner, I am especially interested in 
how representatives of the State and local governments and the 
first responders community, your perspectives, how they were 
incorporated in the State communications interoperability plan 
and the NECP.
    Finally, Mr. Alagna will inform the subcommittee of the 
role that the private sector, a key component, played in 
contributing to the NECP.
    I look forward to a robust discussion about the Federal 
Government contribution to the NECP as represented by the 
Emergency Communications Preparedness Center, as well as other 
impacting developments.
    In closing, I continue to stress the importance of 
adequately addressing the issue of providing first responders 
with reliable and, of course, the resilient emergency 
communications during times of disasters. The lack thereof is 
our Nation's silent threat. We must do all our due diligence 
now before an emergency. We must work together to encourage the 
sound governments, improve coordinated planning efforts to 
address the interoperability challenges we face today, not 
after another natural disaster or terrorist attack. If our 
first responders can't talk, lives will be lost.
    The Chair now recognizes my friend, the Ranking Member of 
the Subcommittee of Emergency Communications, Preparedness and 
Response, the gentleman from Pennsylvania, Mr. Dent, for an 
opening statement. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. I am pleased that you 
have decided to hold this hearing today to talk about the 
National Emergency Communications Plan. This Plan will be an 
important milestone in our efforts to strengthen interoperable 
emergency communications at all levels of government.
    This Plan was required by the Post-Katrina Emergency 
Management Reform Act, which this committee wrote in 2006 to 
define national goals and objectives to achieve interoperable 
emergency communications. The Plan will be the first of its 
kind and will help ensure that the billions of dollars spent on 
emergency communications each year are used effectively.
    Last week, we were informed that the national plan would 
not be available for discussion at today's hearing. Therefore, 
I joined Chairman Cuellar and Chairman Thompson in sending a 
letter to the Department requesting that the subcommittee 
receive the executive summary of the Plan. I was disappointed 
that the Department was unable to meet this request.
    I would note that, while disappointed that the interagency 
process has delayed the Plan's delivery to Congress and that we 
are unable to discuss it fully today, I do commend the Office 
of Emergency Communications for its hard work in putting the 
Plan together. With only a handful of permanent staff and some 
contract support, the OEC has not only completed the draft of 
the national plan but also recently completed its first 
biennial Progress Report on Emergency Communications and the 
first phase of the National Baseline Assessment. The Office has 
also reviewed the State-wide Communication Interoperability 
Plans submitted by all 56 States and territories and 
coordinated with FEMA's Grant Programs Directorate to develop 
the grant guidance for the new Interoperable Emergency 
Communications Grant Program that was issued on June 20.
    I was pleased to see that the Commonwealth of Pennsylvania 
will receive significant funding through the program this year.
    While much has been accomplished, the OEC does not yet have 
sufficient staff to fulfill its important mission and meet its 
statutory deadlines. When Congress created the OEC, it was 
intended to serve as the primary Federal office for national 
interoperable emergency communications policy, planning, and 
analysis. This is a critically important mission that requires 
more staff than the eight or so currently on board.
    It is my understanding that the National Protection and 
Programs Directorate, of which OEC is a part, has been working 
to quickly hire full-time staff. I look forward to receiving an 
update on this effort and discussing with Under Secretary 
Jamison and Director Essid how the Department is ensuring that 
the OEC is properly resourced and supported by the DHS 
leadership.
    I also look forward to discussing with our witnesses how 
the process for developing the National Emergency 
Communications Plan incorporated stakeholder input from various 
disciplines and jurisdictions and how they plan to help 
implement the Plan once it is released.
    Again, I thank the witnesses for taking the time to be with 
us today. I thank Chairman Cuellar, and I yield back at this 
time.
    Mr. Cuellar. Thank you, Mr. Dent.
    Other Members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    At this time, we will start off with the witnesses' 
testimony. I welcome our panel of witnesses that we have here.
    Our first witness is Mr. Robert Jamison, who is the Under 
Secretary for the National Protection and Programs Directorate 
at the Department of Homeland Security. Mr. Jamison leads the 
NPPD in its mission to reduce the risk of both physical and 
virtual threats and their associated human elements. Prior to 
Mr. Jamison's appointment to the DHS, he served for over 3 
years as the Deputy Administrator for the Federal Transit 
Administration at the U.S. Department of Transportation; and we 
welcome you, Mr. Secretary.
    I also welcome back our second witness, Mr. Chris Essid, 
who has previously testified before the committee. Mr. Essid is 
the Director of the Department of Homeland Security Office of 
Emergency Communications within the NECP. He also served as the 
first interoperability coordinator for the Commonwealth of 
Virginia. He has served on the SAFECOM Emergency Response 
Council. Also, Mr. Essid is a veteran of the U.S. Army and 
holds a masters degree in public administration.
    Our third witness is Chief Charles Werner, who is a 30-year 
veteran of the Charlottesville, VA Fire Department and 
personally serves as its fire chief. Chief Werner also serves 
as the SAFECOM Executive Committee Chair and member of the 
Virginia State-wide Interoperability Executive Committee, the 
Communications Committee and the National Public Safety 
Telecommunications Council of Governing Board.
    I also understand, Chief, that you have served 30 years 
already. We see this from the great Daily Progress paper. 
Congratulations on being there for 30 years.
    I was walking this morning--early this morning and knocked 
on his window. He was already preparing. I want to say that 
early this morning, before 8 o'clock, I saw the Chief 
preparing. So he said the hardest part is trying to keep it 
under 5 minutes.
    Our fourth witness is Mr. Richard Mirgon, who currently 
serves as the Director of Technology Services for Douglas 
County there in Nevada and also as the First Vice President of 
the Association of Public Safety Communications Officials. He 
is the founder of the Nevada Chapter of the National Emergency 
Association and the Nevada Chapter of the APCO. Mr. Mirgon 
served 4 years in the United States Air Force as an 
intelligence analyst assigned to a national security agency and 
holds a bachelors degree in public service. Welcome.
    Our fifth witness is Mr. Michael Alagna. Mr. Alagna manages 
Motorola's strategic plan for the Federal Government and the 
international wireless communications programs. He has been 
designated to represent Motorola's industry Executive 
Subcommittee for the National Security Telecommunications 
Advisory Committee and the Communications Sector Coordinating 
Council. He also serves as the Vice President of Motorola's 
Integrated Solutions Group and chairs the State and local 
working group. He also received a bachelors degree from the 
University of Maryland and a masters degree in administration 
from Central Michigan University. Welcome.
    We are pleased to have all of you all here today, and we 
appreciate your testimony. Without objection, the witnesses' 
full statements will be inserted into the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Jamison.
    Again, welcome, sir.

  STATEMENT OF HONORABLE ROBERT D. JAMISON, UNDER SECRETARY, 
  NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Jamison. Thank you, Mr. Chairman and Ranking Member 
Dent and Members of the subcommittee. I appreciate the 
opportunity to discuss the ongoing work of the Office of 
Emergency Communications within the National Protection and 
Programs Directorate and our efforts to improve communications 
for emergency responders and Government officials throughout 
our Nation.
    NPPD has a diverse risk reduction mission with some 
important initiatives that are vital to securing the homeland. 
Some of the Directorate's current priorities are securing the 
chemical sector, establishing in the air and sea environments 
the collection of biometric information from visitors exiting 
our country and leading an interagency effort to improve the 
security of cyberspace.
    Another top priority is the mission of the Office of 
Emergency Communications to enable emergency responders and 
Government officials to continue to communicate during any 
disaster. It is a mission that resonates with the American 
public as well as with the Secretary and with all of us at NPPD 
charged with implementing its critical goals.
    Since Congress established the OEC, the Directorate has 
been focused on ensuring that the office has been ramping up 
resources to deliver the mission. In particular, we need to 
make sure that we have strong leadership in place to deliver on 
goals and to manage the agency through transition and to ensure 
that the staff is on board to get the job done.
    My staff and I have been focused on two important 
priorities. In December of last year, we brought on Chris Essid 
as OEC's Director. Chris' background in the field and as the 
State of Virginia's first interoperability coordinator enables 
him to relate to the issues. Having someone in the Director's 
role that understands the intricacies of Government and the 
realities of the field serves OEC well.
    In tandem with bringing on strong leadership to focus 
priorities, securing adequate staffing levels is a Directorate-
wide challenge. I have established a task force to address 
staffing shortages and have charged them with facilitating the 
hiring process, including accelerating the identification of 
qualified individuals and decreasing the number of days from 
tentative job offer to start date.
    Since the staff task force has been in place, we have 
reduced the time to tentative offer by over 45 percent. OEC, a 
relatively small office of 37 people, is benefiting from those 
initiatives with 13 new hires scheduled to come on board in the 
coming weeks.
    In an effort to bring additional leadership to this area, 
we have also recently hired a seasoned manager with human 
capital experience. Michael Capps is our Director of Resource 
Administration.
    The Office of Emergency Communications is on track to 
deliver the National Emergency Communications Plan which will 
represent a critical step forward in improving the state of 
emergency communications for personnel across the country. The 
NECP will be the first national strategy for emergency 
communications and will drive measurable improvements and 
interoperability and continuity of communications for emergency 
responders Nation-wide. The NECP will be delivered shortly to 
ensure that there will be no impact of the release of the 
fiscal year 2008 grant funds.
    OEC will drive the implementation of the NECP by providing 
targeted technical assistance to State, regional, local, 
territorial and tribal government officials by developing grant 
guidance that aligns with NECP priorities and by coordinating 
the Federal NECP activities.
    The events of 9/11 have concentrated our national attention 
on the importance of emergency communication. While we have 
made progress, we still have much work left to do. As we roll 
out the NECP, we are focusing OEC's efforts on results, 
improved capabilities and interoperability in the field. A 
focus on results will drive the requirements for technical 
assistance grants and other programs.
    I am grateful for the committee's continued support, and 
Chris and I look forward to answering any questions you may 
have.
    [The statement of Mr. Jamison and Mr. Essid follows:]

        Prepared Statement of Robert D. Jamison and Chris Essid
                             July 15, 2008

    Thank you Chairman Cuellar, Ranking Member Dent, and Members of the 
subcommittee. It is a pleasure to be here today to address the Office 
of Emergency Communications' (OEC's) development of the National 
Emergency Communications Plan (NECP) and our other efforts over the 
past year to improve communications for emergency response providers 
and Government officials across the Nation.
    Before turning to the development of a strategic national plan, we 
would like to address Congress' creation of the Office and the 
important mission that it assigned to OEC. As we approach the seventh 
anniversary of the attacks of September 11, we are constantly reminded 
of the need for emergency responders and Government officials to 
communicate seamlessly to manage incidents and restore essential 
services in the aftermath of an incident.
    As we have learned through after-action reports and assessments of 
the Nation's emergency communications capabilities, there continue to 
be technological, organizational, and jurisdictional challenges 
affecting emergency responders' ability to communicate effectively 
during crisis events. This can impact our response and recovery for 
large-scale events such as Hurricane Katrina, as well as countless 
regional and localized incidents that take place every day.
    Ensuring the effectiveness of emergency communications, however, is 
not something the Federal Government can accomplish on its own: it 
requires partnering with the tens of thousands of emergency response 
providers and coordination across disciplines, jurisdictions, and all 
levels of government.
    Recognizing the challenges associated with emergency 
communications, Congress established OEC to be the focal point within 
the Federal Government to strengthen and coordinate interoperable 
emergency communications in collaboration with Federal, State, local, 
and tribal partners. Further, aware of the need for an overarching 
strategy to guide National planning and coordination for emergency 
communications, Congress directed OEC to develop the first NECP and 
update it periodically, in coordination with stakeholders at all levels 
of government.
    Since becoming operational on April 1, 2007, OEC has been focused 
on establishing an effective organization to achieve these critical 
mission requirements. This includes integrating the three 
interoperability programs transferred from other DHS entities--the 
Federal wireless programs under the Integrated Wireless Network; the 
Interoperable Communications Technical Assistance Program (ICTAP); and 
guidance, tool, and template development by the SAFECOM program. The 
day-to-day administration of OEC programs and initiatives is being 
carried out by three branches that report directly to the Director's 
Office: the Multi-Jurisdictional Communications Services (MCS) Branch, 
the Federal Communications Services (FCS) Branch, and the Policy, 
Planning and Analysis Branch.
    OEC is working to assess the emergency communications landscape and 
to identify what is and what is not working; develop plans to reverse 
deficiencies in emergency responders' communications capabilities; 
collaborate on initiatives with our Federal, State, and local partners; 
and work with our partners to implement programs and activities that 
target gaps and make measurable improvements in emergency 
communications.

                                PLANNING

National Emergency Communications Plan
    The National Emergency Communications Plan will serve as a 
strategic roadmap to help drive measurable improvements in the areas of 
interoperability, operability, and continuity of communications for 
emergency responders across the Nation. The Plan seeks to build on the 
substantial progress that we have made collectively as a Nation and 
will be the guiding force behind OEC's strategic planning and 
implementation activities going forward.
    As a key first step in developing the NECP, OEC worked to 
incorporate within the framework of the Plan the requirements under 
Title XVIII of the Homeland Security Act of 2002 (Pub. L. 107-296), as 
amended by the fiscal year 2007 DHS Appropriations Act. Among the many 
requirements, the legislation calls for the NECP to include 
recommendations for expediting the standards process, identifying 
emergency communications capabilities, and providing short- and long-
term solutions, time frames, and benchmarks for ensuring communications 
interoperability and operability. Implementing the Recommendations of 
the 9/11 Commission Act of 2007 (Pub. L. 110-53) added a requirement 
for the NECP to include a date by which our stakeholders expect to 
achieve a baseline level of interoperability, and OEC worked closely 
with the emergency response community to address this specific element.
    In addition to these legislative directives, OEC analyzed pertinent 
emergency management documentation and initiatives for possible 
recommendations and solutions for improving emergency responders' 
communications capabilities. This included numerous after-action 
reports, studies, and strategy documents that address communications 
interoperability and operability issues, such as The Federal Response 
to Hurricane Katrina: Lessons Learned, The 9-11 Commission Report, The 
National Governors Association 2007 State Homeland Security Directors 
Survey, and the SAFECOM 2006 National Interoperability Baseline Survey.

State-wide Communication Interoperability Plans
    To develop targeted NECP initiatives that build on the findings and 
recommendations from these key source documents, OEC leveraged its 
ongoing work in the area of State planning. On December 3, 2007, all 56 
States and territories submitted their State-wide Communication 
Interoperability Plans (SCIPs) in accordance with the requirements of 
both the Public Safety Interoperable Communications (PSIC) Grant 
Program and the Homeland Security Grant Program. This marked a critical 
milestone for the Nation. Now, all 56 States and territories have SCIPs 
that address a common set of requirements and guidelines.
    OEC played an important role in the development and approval of the 
SCIPs, working side-by-side with State and local communities to provide 
related guidance and technical assistance. OEC offered assistance in 
the preparation of these plans to all 56 States and territories and 
conducted SCIP development workshops for the 30 States and five 
territories that requested such help. OEC's technical assistance team 
also supported the development of PSIC Investment Justifications.
    Earlier this year, OEC, in partnership with the Federal Emergency 
Management Agency (FEMA) and the Department of Commerce's National 
Telecommunications and Information Administration, conducted a 
preliminary and final review process to evaluate and approve the SCIPs 
and communicated final feedback and approval decisions to the States 
and territories in April. The SCIPs provided valuable information about 
the current interoperability environment within each State and 
territory. This information was leveraged for the NECP, particularly 
with respect to current State initiatives to address communications 
gaps. Moving forward, OEC will work with the States to ensure that 
future versions of their SCIPs are aligned with the NECP goals and 
objectives, in part through the grant funding States receive under the 
Interoperable Emergency Communications Grant Program.

                     COORDINATION AND COLLABORATION

    Stakeholder involvement was the single most important element in 
the NECP development process. Title XVIII directs OEC to develop the 
NECP in cooperation with State, local, and tribal governments; Federal 
departments and agencies; emergency response providers; and the private 
sector. OEC established various working groups to coordinate plan 
development and ensure that this diverse set of stakeholders provided 
feedback and input at each step of the NECP process. These stakeholder 
forums will be critical in the implementation of the NECP and all areas 
of OEC's mission going forward.
  <bullet> SAFECOM Executive Committee (EC)/Emergency Response Council 
        (ERC).--The SAFECOM EC and ERC, managed jointly by OEC and the 
        Office for Interoperability and Compatibility within DHS' 
        Science and Technology Directorate, are composed of emergency 
        responders at every level of government. The SAFECOM EC 
        provides strategic recommendations on emergency responder needs 
        from the practitioner and policymaker perspective at all levels 
        of government. The SAFECOM ERC serves as a vehicle to collect a 
        broad base of public safety community input on emergency 
        responder user needs and participates in project action teams 
        to develop work products and identify user needs. The EC/ERC 
        were the primary mechanisms for coordinating State and local 
        feedback on the NECP; they formed an NECP Work Group that 
        included more than 40 first responders, elected officials, and 
        public safety communication officials from around the Nation, 
        as well as representatives from some Federal agencies.
  <bullet> Emergency Communications Preparedness Center (ECPC).--Title 
        XVIII directs the ECPC to serve as the focal point and 
        clearinghouse for intergovernmental information on 
        interoperable emergency communications and coordinate Federal 
        input to the Plan. To facilitate Federal participation in the 
        NECP process, the ECPC formed a Focus Group comprising 
        representatives from numerous DHS agencies as well as the 
        Department of Defense, Department of Justice, Department of 
        Commerce, Department of Treasury, Department of the Interior, 
        the Federal Communications Commission, the National Guard, and 
        others.
  <bullet> Critical Infrastructure Partnership Advisory Council 
        (CIPAC).--The CIPAC, developed by DHS, is a key partnership 
        between Government and critical infrastructure/key resource 
        owners and operators; it provides a forum for stakeholders to 
        engage in a broad spectrum of activities. OEC worked within the 
        CIPAC structure to facilitate NECP discussions through a cross-
        sector working group that included private sector 
        representatives from the communications, information 
        technology, and emergency services sectors, as well as State, 
        local, territorial, and tribal government officials.
  <bullet> Federal Partnership for Interoperable Communications 
        (FPIC).--The FPIC is a voluntary organization of Federal, 
        State, local, and tribal emergency communications users, 
        managers, and planners that serves as a forum to build 
        partnerships and collaboratively address policy and technical 
        challenges related to spectrum, standards and technology, and 
        security. Through the FPIC, DHS and other Federal departments 
        and agencies are engaged in resource sharing initiatives with 
        State and local agencies across the Nation.
  <bullet> NECP Federal, State, Local Focus Group.--To facilitate 
        cross-governmental discussions and perspectives about the Plan, 
        OEC organized a focus group consisting of Federal, State, and 
        local representatives with significant experience in public 
        safety communications and emergency response activities.
    OEC worked closely with each of these stakeholder groups to develop 
the core strategic elements of the NECP, including the overall vision 
for the Plan, which calls for emergency response personnel at all 
levels of government, and across disciplines, to communicate as needed, 
on demand, and as authorized. To help us realize that vision, the Plan 
provides goals, objectives, and initiatives for improving emergency 
communications capabilities at the Federal, State, and local levels. 
The Plan reflects the fact that there is no simple solution for solving 
emergency communications challenges. In addition to technology, we must 
also focus on improvements in governance and coordination, planning, 
usage, and training and exercises.

               IMPLEMENTATION--POLICY/GUIDANCE/ASSISTANCE

    The NECP will serve as the first national strategy to guide 
decisionmaking and better integrate Federal, State, local, and private 
sector emergency communications efforts. It will be a living document 
subject to periodic review and updates by OEC, in coordination with its 
stakeholders. Although implementation of the NECP will be a shared 
responsibility among all levels of government, OEC will be the lead 
Federal entity for managing the Plan, working closely with our partners 
to meet milestones and achieve stated goals. In this role, OEC will 
monitor achievement of the NECP's recommended milestones and 
initiatives and will coordinate with our stakeholders to assess 
progress in reaching the Plan's goals.
    OEC will help drive NECP implementation through the provision of 
targeted technical assistance to State, regional, local, territorial, 
and tribal government officials; the development of grant guidance that 
aligns with NECP priorities; and the coordination of Federal NECP 
activities through the ECPC and FPIC. OEC will manage overall 
implementation of the NECP, but, for this to be a successful Plan, the 
emergency response community must take ownership of the proposed 
initiatives and actions, and dedicate itself to meeting the key 
benchmarks. We cannot achieve the NECP's goals without the support and 
commitment of the Federal, State, and local communities that helped 
craft the Plan and that play such an important role in the 
implementation.
    As previously stated, the NECP will be the strategic driving force 
behind everything OEC does as an organization. It will help integrate 
emergency communications efforts at the Federal, regional, State, and 
local levels, and it will better align national resources and 
initiatives under a common strategy. This includes OEC's technical 
assistance and grant guidance work.
Grants
    OEC is responsible for developing and coordinating grant guidance 
for all departmental grant programs funding interoperable 
communications. In addition, OEC will work with other Federal agencies 
to maximize the allocation and expenditures of emergency-response, 
communications-related grant dollars across the Federal Government. 
OEC's annual SAFECOM Recommended Federal Interoperable Communications 
Grant Guidance outlines recommendations for grant funding eligibility, 
including applicants and activities, application criteria, guidelines, 
and resources, to help Federal grant programs use their funds to 
strengthen interoperability within the emergency response community.
    In addition, OEC has been working to implement Section 1809 of the 
Homeland Security Act, which established the Interoperable Emergency 
Communications Grant Program (IECGP) to ``improve local, tribal, State-
wide, regional, national and, where appropriate, international 
interoperable emergency communications.'' OEC has worked in partnership 
with the FEMA Grant Programs Directorate to execute the IECGP, for 
which $50 million was appropriated in fiscal year 2008. OEC has focused 
on ensuring that the IECGP is consistent with the priorities and 
initiatives of the NECP and the SCIPs. Grant guidance for this program 
was released in June.
    Under the IECGP, States are required to report to OEC annually on 
their progress in implementing their SCIPs, and OEC must annually 
submit a report on grant allocation and any progress in implementing 
SCIPs and improving interoperability. These reporting requirements will 
enable OEC to measure the progress of States and territories in 
implementing their SCIPs and assess Nation-wide progress in achieving 
the goals and objectives set forth in the NECP.
Technical Assistance
    Another important element of OEC's mission is the provision of 
technical assistance to State, local, tribal, and territorial 
governments through the ICTAP. OEC's MCS Branch leads our technical 
assistance efforts and supports requests for a range of 
interoperability issues, including engineering, governance, training, 
regional planning, and the Web-based Communication Assets Survey and 
Mapping (CASM) tool funded through ICTAP. Since the NECP attempts to 
resolve many of these same issues, OEC's technical assistance programs 
will pursue a more strategic approach for addressing gaps and improving 
capabilities.
    Over the last year, OEC has supported numerous requests for 
technical assistance, including engineering-related issues on radio 
channel planning and use, interoperability needs assessments, and the 
integration of voice and data technologies. We helped Urban Areas 
address gaps in governance and standard operating procedures (SOPs) 
identified during the 2006 Tactical Interoperable Communications Plan 
(TICP) process and helped States develop their Regional TICPs. OEC also 
established an agreement with FEMA to provide gateway training for 
emergency response personnel participating in the Commercial Equipment 
Direct Assistance Program Conference in New Orleans, Louisiana.
    Further, OEC offers ongoing assistance through CASM, which collects 
and displays interoperable communications information to improve 
emergency responders' communications planning. In 2007, OEC enhanced 
the tool's functionality, and CASM was used by stakeholders throughout 
the country. At the end of 2007, CASM contained information on 60 
States and Urban Areas, and there are currently more than 1,100 CASM 
user accounts.
    Historically, technical assistance programs have successfully 
enhanced emergency communications capabilities jurisdiction by 
jurisdiction, in response to requests from individual agencies. Going 
forward, OEC will develop targeted technical assistance offerings that 
align with gaps in the current capabilities and initiatives identified 
in the NECP.
    The development and implementation of the NECP depends on OEC's 
successful relationship with our stakeholders under the SAFECOM 
program. SAFECOM brings Federal, State, and local stakeholders together 
to improve interoperability by developing tools, best practices, and 
methodologies for emergency response agencies. SAFECOM is an important 
resource for achieving the vision and advancing the goals and 
objectives of the NECP.
    OEC and its SAFECOM stakeholders are currently developing two key 
tools that will foster NECP implementation and address gaps identified 
in SCIPs: The Governance Sustainability and Strategic Planning 
Implementation Methodology, which provides guidance and lessons learned 
in creating and sustaining an effective State-wide communications 
interoperability governance structure through SCIP implementation, and 
The Capabilities Assessment Guide, which will help practitioners 
develop and execute a capabilities assessment for communications 
interoperability. The guide will also demonstrate numerous ways for 
users to inventory interoperability assets, including the application 
of CASM, in their overall assessment process.

Cross-border Interoperability Initiatives
    Cross-border interoperability is critical in enabling emergency 
response providers to coordinate and mitigate threats posed by criminal 
activity such as drug and human trafficking and terrorism. Through the 
FCS Branch, OEC is leading several initiatives in support of the NECP 
that improve cross-border communications interoperability among 
domestic (e.g., Federal, State, local, and tribal agencies) and 
international partners (e.g., Canada and Mexico), including:
  <bullet> 2010 Olympics/Northwest Expansion Project.--OEC is 
        supporting the 2010 Olympics Security Committee Communications 
        Interoperability Working Group in its efforts to ensure 
        effective interoperability during the Olympic and Paralympics 
        Games, including coordinating the development of an Integrated 
        Interoperable Communications Plan and related training and 
        exercises for all applicable Federal, State, local, tribal, and 
        non-governmental organization emergency response providers.
  <bullet> U.S.-Mexico High-Level Consultative Commission on 
        Telecommunications (HLCC).--OEC is leading the HLCC Security 
        Communications Task Group's development and implementation of a 
        long-term solution to improve communications among emergency 
        response providers on both sides of the border to combat border 
        violence and improve public safety.

                       MEASUREMENTS AND REPORTING

    OEC's current levers and incentives for driving NECP implementation 
include the provision of technical assistance to State, regional, 
local, and tribal government officials; the development of grant 
guidance and programs (such as the IECGP); and the coordination of 
Federal emergency communications activities through the ECPC and FPIC. 
In addition, Title XVIII directs OEC and its Federal partners to submit 
to Congress a number of periodic assessments and reports concerning 
progress made in improving emergency communications Nation-wide.
    One such report is OEC's Biennial Progress Report, which presents 
an assessment of operable and interoperable emergency communications 
capabilities across all levels of government. DHS submitted OEC's first 
Progress Report to Congress earlier this year. In addition, DHS 
submitted the first phase of OEC's National Communications Capabilities 
Report (NCCR) to Congress in April. This phase of the NCCR evaluates 
emergency communications capabilities, provides an understanding of 
emergency response capabilities needed, and summarizes Federal and 
State interoperable frequencies and public safety systems and equipment 
currently in use.
    The NCCR indicates that Federal, State, local, and tribal 
governments currently have varying levels of available capabilities to 
address emergency communications needs and that additional work is 
needed to formalize and broaden governance structures, standardize 
interagency SOPs and agreements across regions and surrounding States, 
manage communications assets, increase backup capabilities, and improve 
training programs and exercises. OEC used NCCR data to develop the 
NECP, including a baseline for measuring interoperability and 
operability assurance capabilities.
    OEC will leverage other Title XVIII reports and assessments to 
monitor progress in achieving NECP goals and objectives, including the 
annual progress reports under the IECGP, the Regional Emergency 
Communications Coordination Work Group annual reports, and the ECPC 
annual strategic assessment.

                               CONCLUSION

    Mr. Chairman and the committee, thank you for your continued 
support for such a vital part of the overall homeland security mission. 
OEC is committed to achieving a unified vision for the Nation, one that 
enables emergency responders to communicate as needed, on demand, and 
as authorized, at all levels of government and across all disciplines. 
We are extremely proud of the efforts the Office has made over the past 
year to meet this challenge, improve interoperable communications for 
the emergency response community, and ensure the sustainability of 
communications in an all-hazards context.
    We will be happy to answer any questions you may have.

    Mr. Cuellar. Thank you for your testimony.
    I now recognize Director Essid to summarize his statement 
for 5 minutes.

    STATEMENT OF CHRIS ESSID, DIRECTOR, OFFICE OF EMERGENCY 
        COMMUNICATIONS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Essid. Thank you, Chairman Cuellar, Ranking Member Dent 
and Members of the subcommittee. It is my pleasure to be here 
today to highlight the initiatives to improve emergency 
communications for responders and Government officials across 
the Nation.
    As we approach another anniversary of the September 11 
attacks, we are reminded of the need for emergency responders 
to communicate seamlessly, regardless of the size or scope of 
an event. While we have made significant progress, our after-
action reports and capabilities assessments show that we still 
have technological, organizational and jurisdictional 
challenges affecting emergency communications.
    Congress created the Office of Emergency Communications to 
be the Federal focal point for strengthening communications for 
our Nation's emergency responders. As OEC's new Director, my 
top priority has been to implement a strategic approach to 
improving interoperable communications Nation-wide. The key 
initial step has been the National Emergency Communications 
Plan.
    OEC has set an aggressive timeline for developing the NECP 
and established a planning framework that was collaborative, 
interdisciplinary and intergovernmental. The plan will set 
national goals and objectives for enhancing emergency 
communications over the next several years. It also will 
include recommendations and milestones to guide measurable 
improvements in the areas of governance, planning, technology, 
training and exercises and disaster communications 
capabilities.
    Another milestone was reached last April with the approval 
of the State-wide communications interoperability plans. As of 
March, 2007, only 8 States had interoperability plans. Now all 
56 States and territories have approved State-wide plans that 
address a common set of requirements and guidelines.
    Beyond their value to the States, this planning process has 
provided OEC with an understanding of State and local 
interoperability efforts, which helps us better target grant 
funding for interoperable communications. Historically, 
technical assistance programs have enhanced emergency 
communications capabilities jurisdiction by jurisdiction in 
response to individual requests from agencies. Since OEC 
commenced operations, we have provided more than 275 technical 
assistance visits to States and localities throughout the 
Nation.
    Going forward, OEC will develop targeted technical 
assistance offerings that target gaps in the current 
capabilities and initiatives identified in the State-wide plans 
and in the national plans.
    One technical assistance success story is our National 
Interoperability Field Operations Guide. This guide is a 
convenient collection of channel information and other 
technical reference material for radio technicians in the 
field. It is a bestseller. We can't keep it in print. Thus far, 
it has had over 90,000 downloads off a Web site from first 
responders all over the Nation.
    With support from the Department and NPPD leadership, OEC 
has completed an assessment of the emergency communications 
landscape. We have helped State and local stakeholders develop 
policy and plans to address deficiencies in emergency 
responders' capabilities, and we are implementing programs and 
initiatives such as the technical assistance in grants to close 
the gaps and make measurable improvements in emergency 
communications.
    Also, the Nation will soon have a strategic plan in place 
that ties all of these activities together in a strategic, 
forward-looking process.
    OEC recognizes the importance of interoperability, and it 
remains a critical capability. We stand committed to supporting 
our first responders and incident managers through a 
coordinated, practitioner-driven national policy framework.
    Mr. Chairman and committee Members, thank you for your 
continued support.
    Mr. Cuellar. Thank you for your testimony.
    At this time, I now recognize Mr. Richard Mirgon to 
summarize his statement for 5 minutes.

  STATEMENT OF RICHARD MIRGON, DIRECTOR, TECHNOLOGY SERVICES, 
DOUGLAS COUNTY, MINDEN, NEVADA ON BEHALF OF THE ASSOCIATION OF 
  PUBLIC-SAFETY COMMUNICATIONS OFFICIALS (APCO) INTERNATIONAL

    Mr. Mirgon. Thank you, Chairman Cuellar, Ranking Member 
Dent, Members of the Subcommittee on Emergency Communications, 
Preparedness and Response for this opportunity to appear before 
you today on behalf of the Association of Public Safety 
International, more commonly known as APCO.
    My name is Richard Mirgon. I am the Director of Technology 
Services for Douglas County in Nevada. I have over 30 years of 
public safety experience where I have worked from a police 
officer to a Department head running public safety 
communications. I am also currently serving as the First Vice 
President of APCO International.
    APCO International was established in 1935 and today is the 
Nation's largest public safety communications organization, 
with nearly 15,000 members who build, supply, manage and 
operate communications systems for police, fire and emergency 
services throughout the country.
    APCO would like to thank and recognize the leadership of 
Chairman Benny Thompson and all the Members of the House 
Homeland Security Committee and the U.S. Congress for its 
thoughtful legislation mandating the National Emergency 
Communications Plan and the Office of Emergency Communications.
    Additionally, we would like to recognize and thank the 
personal leadership within the U.S. Department of Homeland 
Security for developing and delivering the NECP. Specifically, 
we would like to thank the Director of the Office of Emergency 
Communications, Chris Essid; the Assistant Secretary of 
Cybersecurity and Communications, Greg Garcia; the Deputy Under 
Secretary and Under Secretary for the National Protection and 
Programs Directorate, Scott Charbo and Robert Jamison; Deputy 
Secretary Schneider; and, of course, Secretary Chertoff for 
their leadership of the NECP.
    As we have all heard, the No. 1 challenge to 
interoperability is funding. However, it is not entirely about 
funding equipment. It is also about funding the proper 
planning, coordination and training, all of which are discussed 
in the NECP.
    For the NECP to be successful, there are several key issues 
that need to be addressed. The first is that local and State 
governments must buy into the plan and the plan must be 
flexible enough to accommodate special needs for local and 
State governments. There must be funding to ensure outreach. 
Without this outreach, local government and field personnel are 
not going to be aware of the plan; and if they are not aware of 
the plan, then they have no ability to comply with it.
    Next, there needs to be more coordination at the Federal 
level and more needs to be done by OEC to promote operational 
standards for emergency communications and to encourage the use 
of standards. OEC needs funding so that they can work with 
State, local and Federal partners to develop requirements at 
Federal, State, local and regional levels that would provide a 
national model for standard operating procedures.
    There needs to be increased Federal funding for research 
and development of open-source standards based on 
communications technologies that would promote competition and 
lower the cost for emergency communications networks. An 
example of this is APCO's P-25 standard that is used today. It 
is a suite of standards that has been developed for many years 
that is not yet complete. There needs to be specific funding 
available so that this suite of standards can be completed. 
Federal funding for this type of research and development would 
reduce the potential for creating additional proprietary 
equipment and would help to reduce the cost of equipment by 
creating those standards.
    There also needs to be requirements and funding for 
training. Most public safety field personnel receive training 
in the use of fire hoses, weapons, vehicles, but most do not 
receive any training in the use of their radios or the radio 
system. The days when fire and police personnel said that all 
they wanted to do was for the radio to work when they pushed 
the button are gone. These radios and the systems are complex, 
and they cannot be taken for granted.
    APCO International continues to support the public-private 
partnership and development of a national interoperable 
broadband network that is designed and mandated to meet the 
requirements of public safety communications. As much as we 
need this network, it does not preclude the need to continue 
the deployment and development for public safety land and 
mobile radio systems.
    Our current networks are built to provide mission-critical 
communications whenever and wherever emergencies occur. It is 
unlikely that the new broadband networks will provide 
comparable mission-critical capabilities for most first 
responders until the far future. We acknowledge the fact that 
communication systems might fail during a large-scale incident. 
Because of this, it is important that all plans, including the 
NECP, provide the necessary framework to require situational 
analysis, disaster planning, training, exercise and other 
preparedness activities that include all levels of 
communications operations.
    These plans must also include 911 systems and public safety 
answering points since they are the primary conduit between the 
first responders and the general public.
    In conclusion, the NECP is a good first step, but a great 
deal of work still has to be done to meet the goals of this 
plan. The primary concerns we have about the NECP is that the 
OEC may not have the necessary funding and resources to 
accomplish the objectives of the plan. Until it gets the full 
backing of Congress to appropriate the necessary funds, it will 
fail. On behalf of our 15,000 members, I ask that you not let 
this happen.
    Thank you.
    [The prepared statement of Mr. Mirgon follows:]

                  Prepared Statement of Richard Mirgon
                             July 15, 2008

    Thank you Chairman Cuellar, Ranking Member Dent, and Members of the 
Subcommittee on Emergency Communications, Preparedness, and Response 
for this opportunity to appear before you today on behalf of the 
Association of Public-Safety Communications Officials (APCO) 
International.
    My name is Richard Mirgon and I am the Director of Technology 
Services for Douglas County Emergency Communications Center in Minden, 
Nevada. I have over 30 years of public safety experience and I have 
worked as a police officer, emergency manager and department head 
overseeing public safety communications design and operation. I 
currently serve as the First Vice President of APCO International.
    APCO International was established in 1935 and today it is the 
Nation's largest public safety communications organization, 
representing nearly 15,000 members worldwide who build, supply, manage 
and operate communications systems and facilities for police, fire, 
emergency medical services and other State and local government public 
safety agencies. APCO International also serves the needs of more than 
100,000 professionals in the public safety communications industry by 
providing training, frequency coordination, engineering, licensing, 
advocacy and networking opportunities.
    As an American National Standards Institute (ANSI)-accredited 
Standards Developer (ASD), APCO International is dedicated to ensuring 
public safety communications has a role in the development of standards 
that affect our industry. APCO International's standards development 
activities have a broad scope, ranging from the actual development of 
standards to the representation of public safety communications in 
other standards development areas.
    APCO International represents its members and public safety 
communications on the following ANSI Standards Panels: Homeland 
Security Standards Panel (HSSP), Healthcare Information Technology 
Standards Panel (HITSP), and Identity Theft Prevention and Identity 
Management Standards Panel (IDSP).
    In 2002, APCO International also established the Public Safety 
Foundation of America (PSFA), a 501(c)(3) charitable organization to 
engender cooperation among public and private groups to provide 
financial and technical support to the public safety communications 
community. Under the PSFA's original mission, five rounds of grants 
were completed and included the delivery of more than $13 million to 
over 200 agencies in 40 States.
    I am here to tell you that in the field of public safety 
communications there are five truths that we need to acknowledge.
    1. Disasters will occur.
    2. Public and private communications systems will fail.
    3. There will be chaos after a major incident that could last of 
        days.
    4. The public will have an expectation that they will receive 
        immediate and adequate emergency response no matter what the 
        incident involves.
    5. First responders will be deployed to the incident no matter what 
        the conditions are on the ground and what communications 
        systems may or may not be operating.
    Today, the No. 1 challenge to interoperability is funding. For more 
than 75 years, local police, fire, and emergency services have been 
building their own independent communications systems. These systems 
have cost local governments hundreds of millions of dollars and they 
are built using proprietary technology and equipment. The tragic events 
over the past two decades have begun to shift the paradigm of building 
stovepipe communications systems to building interoperable 
communications networks, but we still have a long way to go. 
Unfortunately, the cost of replacing and upgrading the thousands of 
communications systems around the country is in the billions of 
dollars.
    To assist local and State governments in meeting this challenge, 
Congress passed the 9/11 Commission Recommendations Act (H.R. 1) which 
established the first-ever dedicated interoperable emergency 
communications grant program. This Act authorized $1.6 billion over the 
next several years for the grant program, but we are concerned that 
Congress will not appropriate the full authorized amount of $400 
million for fiscal year 2009. If the goals of the National Emergency 
Communications Plan (NECP) are to be successful, the administration and 
Congress must ensure the NECP and the interoperable emergency 
communications grant programs are fully funded.
    There also needs to be increased Federal funding for research and 
development of open-sourced standards-based communications technologies 
that would promote competition and lower cost for emergency 
communications networks. Also, before any new technology is deployed, 
there has to be a nationally recognized testing and certification 
process to make sure the new technologies will meet the needs of first 
responders. Federal funding for research and development would reduce 
the potential of creating additional proprietary equipment that could 
limit interoperability and increase cost for public safety 
communications equipment.
    APCO International appreciates the hard work that was done by the 
Department of Homeland Security (DHS) Office of Emergency 
Communications (OEC) in developing the NECP. We believe the plan 
provides a good first step in identifying the goals and objectives that 
could become the building blocks to improving local, State, and Federal 
interoperable communications. The plan offers an aggressive time table 
from 6 months to 3 years to accomplish many of the recommended national 
milestones.
    APCO International would like to thank and recognize the leadership 
of Chairman Bennie Thompson and all the members of House Homeland 
Security Committee, and the U.S. Congress in its thoughtful legislation 
under Title XVIII in 2006, mandating the National Emergency 
Communications Plan (NECP) and the Office of Emergency Communications 
(OEC). Additionally, APCO International would like to recognize and 
thank the personal leadership within the U.S. Department of Homeland 
Security for developing and delivering the NECP. Specifically, we would 
like to thank the Director of the Office of Emergency Communications, 
Chris Essid, the Assistant Secretary of Cybersecurity and 
Communications, Greg Garcia, the Deputy Under Secretary and Under 
Secretary for the National Protection and Programs Directorate, Scott 
Charbo and Robert Jamison, Deputy Secretary Schneider and Secretary 
Chertoff for their leadership in creating the NECP.
    APCO International has long recognized the need to have effective 
emergency communications plans to improve interoperable communications. 
For many years, these plans have been developed at the local, State, 
and regional levels. The NECP is the first attempt to bring all plans 
under one national umbrella that also includes Federal interoperable 
communications planning.
    I would like to highlight four key principles that will be critical 
to the success of the plan.
1. Local and State governments must buy in to the plan.
    The NECP must be flexible enough to accommodate special needs of 
local and State governments. Public safety agencies must be made aware 
of their role in meeting the national milestones of the plan. We 
believe there has to be considerable outreach by the OEC and other 
organizations to promote the NECP and educate local, State, and Federal 
officials about the goals of the plan. The plan should not create 
unreasonable expectations on public safety agencies or local 
governments that cannot be met. The plan should also provide adequate 
funding measures to ensure all local and State governments are able to 
contribute to the national goal of improving interoperable 
communications.
2. The OEC must be funded so that it can provide the necessary 
        resources to accelerate the development of technical and 
        operational communications standards.
    There are a number of organizations, including APCO International, 
that are working on a variety of technical and operations standards. 
Many of these efforts are independent of each other and there is very 
little if any national coordination. We believe the OEC must take a 
lead role in cataloging current standards and working with nationally 
accredited standards setting organizations to provide a clear road map 
for local public safety agencies to follow.
    One of the key obstacles to interoperability is standards are not 
consistently or adequately shared with State and local agencies.
    More has to be done by OEC to promote operational standards for 
emergency communications centers and encourage the use of standards by 
local, State, and Federal agencies. OEC needs to work with local, 
State, and Federal partners to develop requirements at Federal, State, 
local and regional levels that would provide a national model for 
Standard Operating Procedures (SOP). The national model needs to be 
flexible enough to meet each agency's unique emergency communications 
requirements. Agencies that use the national SOP model could receive 
certification through a nationally recognized accreditation program for 
a public safety communications.
3. Voice communications on current narrowband land mobile radio 
        networks will continue to be the most mission-critical form of 
        communication.
    Public safety agencies are looking to improve voice, video and data 
communications capabilities through new technologies that use broadband 
networks. However, these applications will continue to be secondary to 
mission-critical voice communications on current narrowband land mobile 
radio channels for many years to come. The current networks are built 
to provide extremely high levels of reliability and coverage, essential 
for ``mission-critical'' communications whenever and wherever 
emergencies occur. It is unlikely that new broadband networks will 
provide comparable ``mission-critical'' capability for most first 
responders until far into the future.
    There is still considerable work that needs to be done to create a 
national broadband network that can be used by public safety on the 700 
MHz spectrum band. While the future promise of the national public 
safety broadband network is great, we cannot afford to divert our 
attention from improving our Nation's voice interoperable 
communications system in the narrowband channels. In particular, it is 
important that Federal grant programs continue to focus on addressing 
this mission-critical voice interoperability problem.
    APCO International continues to support the development of a 
national, interoperable, broadband network that is designed, 
maintained, and operated to meet the requirements of public safety 
communications to the maximum extent feasible. A national interoperable 
network is necessary to avoid a continuation of the current patchwork 
of public safety communications systems with greatly varying degrees of 
capability, inconsistent levels of interoperability, inefficient use of 
spectrum, and the lack of a competitive, open marketplace for radio 
equipment. The network must also meet public safety requirements and 
expectations regarding coverage, reliability, capability, and control 
to the maximum extent feasible. Otherwise the network will not become a 
useful, dependable tool for first responders and it will not meet 
expectation.
    Ideally, a national public safety broadband network could be 
deployed entirely by public safety entities using only spectrum 
allocated for public safety use. However, the enormous cost of such a 
network requires either unprecedented levels of Federal funding or some 
form of public-private partnership funding. The required levels of 
Federal funding that would be in the tens of billions of dollars are 
not likely to materialize nor should Federal funding of current 
interoperable emergency communications grants be diverted to fund such 
a network.
    The public-private partnership proposal that is currently being 
considered by the Federal Communications Commission (FCC) creates the 
opportunity for a commercial enterprise, the D-Block auction winner, to 
build a national broadband network that spans both public safety 
allocated spectrum and the D-Block spectrum. The challenge is to 
develop rules that encourage potential bidders to take on such a task 
while still ensuring that the network will meet the special 
communications needs of public safety agencies.
4. To mitigate the potential failure in emergency communications 
        networks agencies should develop strategies that assess 
        vulnerabilities and develop continuity of operations plans at 
        all levels.
    We acknowledge the fact that communications systems might fail 
during a large-scale incident. Failures could occur at multiple points 
in a network and may include human error, system overload, and 
destroyed equipment resulting from a terrorist attack or natural 
disaster. It is important that all plans, including the NECP provide 
the necessary framework to require situational analysis, disaster 
planning, training, exercises and other preparedness activities that 
include all level of communications operations. These plans must also 
include 9-1-1 systems and public safety answering points (PSAPs).
    PSAPs are the primary conduit between the general public and first 
responders. They provide the initial life line to the public during an 
incident. With the exception of a very few 9-1-1 systems, most are 
owned by local exchange carriers (LECs). It is critical that 
vulnerability assessment also take in to consideration the lifeline 
between the public and the PSAPs.
    In conclusion, the NECP is a good first step, but a great deal of 
work still has to be done to meet the goals of the plan. The primary 
concerns we have about the NECP is that the OEC may not have the 
necessary funding and resources to accomplish the objectives of the 
plan. The Federal Government has developed many ``plans'' over the past 
several years, but no matter how good a plan is, unless it gets the 
full backing of Congress to appropriate the necessary funds the plan 
will most likely collect dust and wither away. On behalf of our 15,000 
members I ask that you not let that happen.

    Mr. Cuellar. Thank you again for your testimony, Mr. 
Mirgon.
    At this time, I will recognize Chief Werner to summarize 
his statement for 5 minutes.

   STATEMENT OF CHARLES L. WERNER, EFO/CFO, CHARLOTTESVILLE, 
                   VIRGINIA, FIRE DEPARTMENT

    Mr. Werner. Good morning, Mr. Chairman. I am certainly glad 
there wasn't anything bad in that paper. Good morning to 
Members of the committee.
    My name is Charles Werner. I have 34 years of public safety 
experience, presently serve as the fire chief for the city of 
Charlottesville, Virginia.
    I am a member and former Chair of the Virginia State-wide 
Interoperability Executive Committee, and I serve as a member 
of the Charlottesville-Albemarle-University of Virginia 
Regional Emergency Communications Center Management Board. 
Today, I am appearing as the SAFECOM Executive Committee Chair.
    I appear today specifically to address the continuing 
communications need for America's public safety--operability, 
interoperability and the development of the National Emergency 
Communications Plan. I would like to echo Mr. Mirgon's 
statement to thank Congress for the legislation that created 
the OEC and the National Emergency Communications Plan.
    The SAFECOM Executive Committee itself is a public safety 
practitioner-driven advisory committee that serves as an 
effective and collaborative bridge between the OEC and OIC. 
When we look back this past month as far as SAFECOM and its 
resources, its Web site alone now receives over 300,000 visits 
per year as people are getting information. I think that is a 
pretty measurable goal.
    About interoperability. As Mr. Mirgon also mentioned, 
effective interoperability includes more than funding it. It 
requires an effective blending of governance, standard 
operating procedures, technology, training and exercises. 
Planning is one of those key components to accomplish that 
goal.
    As Mr. Essid mentioned, it is interesting that over a year 
ago only seven States or eight States had State 
interoperability plans; and today all of the States and 
territories have accomplished plans. That is a major 
accomplishment in conversations between lots of people about 
something that is very common to us all and should be 
acknowledged.
    These SCIPs are the first and necessary step to a continued 
dialog between and inclusive of all public safety between all 
levels of government. That is something we have to change.
    The OEC played an important role in the development, review 
and approval of those 56 SCIPs; and the OEC conducted SCIP 
workshops for 30 States and 5 territories where it was 
requested, a much-needed resource.
    The next monumental step toward improving emergency 
communications is through the development of the National 
Emergency Communications Plan. For the first time, we need 
something that is a national plan--and let me re-emphasize 
national plan, not Federal plan. It is a plan that brings us 
all together into a collective that makes us more effective 
than we are individually and to work together when we need to. 
It is a necessary guidance to provide and define measurable 
outcomes, identify gaps and develop long-term, sustainable 
emergency communication strategies that are inclusive of and 
between local, tribal, State and Federal governments.
    We must change the paradigm of individual and separate 
systems where it is feasible. Where we can leverage existing 
systems between local, State and Federal entities, we need to 
do that where it makes sense.
    One vital acknowledgement that I must make through this 
process is the assistance, guidance, leadership exhibited by 
OEC Director, Chris Essid. How the plan is developed is just as 
important as the plan itself, and Director Essid's leadership 
has been stellar. He has literally and actively engaged 
hundreds of public safety practitioners across this country to 
have a meaningful dialog in development of this plan, and they 
were some interesting conversations.
    As far as moving forward, of what we need to do, we need to 
continue to engage the public safety practitioners to 
understand what it is that we need, the people on the ground 
that are doing the job. This is the first step is moving in 
that direction.
    Technical assistance is another thing that is needed. The 
processes and the purchasing is becoming so complex that, in 
order to successfully achieve these goals in the SCIPs and the 
National Emergency Communications Plan, assistance is needed to 
accomplish that goal.
    One important point of the National Emergency 
Communications Plan is it must embrace the common trends and 
themes that are in the SCIPs, not to erase or eradicate what 
has been done but to build on the work that has been done by 
the States; and, so far, that has been done. It has been a 
pleasing thing to see.
    The training of communications leaders is also critically 
important to work in large-scale emergency incidents, and that 
is under way, and it is being really embraced by public safety 
to support NIMS.
    The last couple points that I think will help the NECP: 
Every State institutionalizing a broad, multi-discipline 
representative governance; a designated/dedicated 
interoperability position in every State to continually develop 
the SCIPs, provide further development of the NECP and to 
ensure SCIPs remain in sync with the NECP; implementation of a 
plain language policy; implementation of common channel naming 
program and training of COMLs to accomplish that; and continued 
research and development.
    The last point is the successful deployment of a national 
public safety broadband network is critical to enhance the 
ability of the National Emergency Communications Plan.
    Thank you.
    [The statement of Mr. Werner follows:]

                Prepared Statement of Charles L. Werner
                             July 15, 2008

    Good morning Mr. Chairman and Members of the committee. My name is 
Charles Werner. I have 34 years of public safety experience and 
presently serve as the fire chief for the city of Charlottesville, 
Virginia, a member and former Chair of the Virginia State-wide 
Interoperability Executive Committee and a member of the 
Charlottesville-Albemarle-University of Virginia Regional 
Communications Center Management Board. I am appearing today as the 
SAFECOM Executive Committee Chair.
    Last year America's public safety agencies responded to millions of 
emergency incidents across this Nation. Collectively these same public 
safety agencies continue to prepare through an ``All-Hazards'' approach 
to various emergency incidents including natural disasters and 
terrorist attacks. I appear today to address a specific and continuing 
communications need for America's public safety--interoperability and 
the development of a National Emergency Communications Plan (NECP). 
First, I would like to thank Congress for the legislation that created 
the Office of Emergency Communications (OEC) and the National Emergency 
Communications Plan (NECP).

                 ABOUT SAFECOM (WWW.SAFECOMPROGRAM.GOV)

    SAFECOM is a communications program of the Department of Homeland 
Security. SAFECOM provides research, development, testing and 
evaluation, guidance, tools, and templates on interoperable 
communications-related issues to local, tribal, State, and Federal 
emergency response agencies. The Office of Emergency Communications 
(OEC) supports SAFECOM's development of guidance, tools and templates. 
The Office for Interoperability and Compatibility (OIC) supports 
SAFECOM-related research, development, testing, evaluation and 
standards. OEC is managed by the Directorate for National Protection 
and Programs. OIC is managed by the Science and Technology Directorate.
    The SAFECOM Executive Committee is a public safety practitioner-
driven advisory committee that serves as an effective and collaborative 
bridge between OEC and OIC.

                         ABOUT INTEROPERABILITY

    As the SAFECOM Interoperability Continuum explains, effective 
interoperability requires the effective blending of Governance, 
Standard Operating Procedures, Technology (voice & data), Training & 
Exercises and Usage.
    Planning is one key component to successful public safety 
interoperability. As of March 2007, only 8 States \1\ had State-wide 
Communication Interoperability Plans (SCIPs).
---------------------------------------------------------------------------
    \1\ Based on data collected at the Los Angeles National Governor's 
Association Conference to discuss interoperable communications.
---------------------------------------------------------------------------
    Just over a year later, ALL 56 States and territories have SCIPs 
that address a common set of requirements and guidelines. THIS IS A 
MAJOR ACCOMPLISHMENT FOR OUR NATION! These SCIPs are an important step 
in creating a culture of effective planning for interoperability and 
emergency communications.
    These SCIPs are the first necessary step to begin a continued 
dialog between and inclusive of all public safety disciplines and 
across levels of government (local, tribal, State and Federal).
    OEC played an important role in the development, review and 
approval of all 56 SCIPs. Additionally OEC conducted SCIP workshops for 
the 30 States and 5 territories that requested assistance.
    The next monumental step toward improving emergency communications 
is through the development of the National Emergency Communications 
Plan (NECP). The NECP is the first NATIONAL (not Federal) strategy for 
emergency communications.
    The NECP is a critically important and absolutely necessary step to 
provide guidance, define measurable outcomes, identify gaps and develop 
long-term sustainable emergency communications strategies that are 
inclusive of and between local, tribal, State and Federal governments. 
The paradigm must be changed to create/allow opportunities for the 
various levels of government agencies to leverage existing systems when 
it can satisfy the needs of each respective agency.
    One vital acknowledgement is the way in which OEC Director Chris 
Essid has gone about the development of the NECP. How the plan is 
developed is as important as the plan itself.
    Director Chris Essid's leadership has been stellar; he has actively 
engaged hundreds of first responders and practitioners from the local, 
State and Federal Governments as well as private industry to achieve 
meaningful input for the development of the NECP. This input is 
invaluable as it is directly from the people who ``own'' the problem 
and know first-hand what is needed.
    I would also like to thank Assistant Secretary of Cybersecurity and 
Communications, Greg Garcia, the Deputy Under Secretary and Under 
Secretary for the National Protection and Programs Directorate, Scott 
Charbo and Robert Jamison, Deputy Secretary Schneider and Secretary 
Chertoff for their support of Director Essid and the development of the 
NECP.

                 SUCCESSFUL IMPLEMENTATION OF THE NECP

    The NECP must be developed in such a way that while establishing a 
national plan it is able to embrace common themes from the SCIPs and 
build upon the work that has already been done by the States and its 
respective practitioners.
    The NECP must continue to actively involve public safety 
practitioners in the ongoing development through SAFECOM's Executive 
Committee, Emergency Response Council, State Interoperability 
Coordinators, etc.
    The NECP must provide support to States and localities as they 
implement the goals and initiatives in the NECP and their individual 
SCIPs.
  <bullet> Technology funding for voice and data equipment that aligns 
        with SCIPs and the NECP.
  <bullet> Technical support/assistance.--Systems and solutions have 
        become very complex, technical with difficult contractual and 
        procurement processes. Over the last year, OEC supported over 
        120 requests for technical assistance in the areas of training, 
        planning, governance and engineering. For the same reasons, it 
        is important to preserve the Interoperable Communications 
        Technical Assistance Program (ICTAP).
  <bullet> Funding for the technical support through the Interoperable 
        Emergency Communications Grant Program (IECGP) was identified 
        as a priority by the SAFECOM Executive Committee and the 
        Emergency Response Council both of which are comprised of 
        emergency response practitioners. It is believed that the $50 
        million investment in 2008 for the purpose of planning, 
        governance, conducting training/exercises, and developing 
        common procedures and protocols will have a profound impact on 
        the SCIPs and NECP.
  <bullet> Training.--Train certified Communications Unit Leaders 
        (COML) across the Nation to establish communications during 
        large-scale incidents according to a standard procedure that 
        support the National Incident Management System (NIMS).
    <bullet> To date, OEC has supported training for over 90 emergency 
            responders from at least ten States. Included were 
            personnel with a role in the two political national 
            conventions and the 2010 Olympics in Canada. Additional 
            training of this type is essential.
    <bullet> A National Interoperability Field Operations Guide (NIFOG) 
            was published and distributed by the OEC in 2007 with over 
            90,000 downloads to date.

             OTHER CONTRIBUTING FACTORS TO ENHANCE THE NECP

    Every State institutionalizing a broad multi-discipline 
representative governance.
    A designated/dedicated interoperability position in every State to 
continually develop the SCIPs, provide input to the further development 
of the NECP and to ensure the SCIPs remain in sync with the NECP.
    Implementation of plain language policy.
    Implementation of common channel naming program.
    Training of a cadre of trained All Hazards Type III COMLs in every 
State.
    There must be continued support of research toward the development 
and implementation of new communications technologies (voice and data) 
as has been successfully done through the Office of Interoperability 
and Compatibility (OIC).
    The successful deployment of a national public safety broadband 
network is critical and will greatly enhance the communications 
capabilities for all public safety responders and will dramatically 
expand the scope of the NECP.

    Mr. Cuellar. Thank you, Chief, for your testimony.
    At this time, I would like to recognize Mr. Alagna to 
summarize his statement for 5 minutes.
    Welcome.

 STATEMENT OF MICHAEL L. ALAGNA, DIRECTOR, HOMELAND SECURITY, 
        STRATEGIC INITIATIVES AND POLICY, MOTOROLA, INC.

    Mr. Alagna. Good morning. Good morning and thank you, 
Chairman Cuellar, Ranking Member Dent and other distinguished 
Members of the subcommittee.
    I am Michael Alagna, Director of Homeland Security 
Strategic Initiatives at Motorola. That is where I focus on 
national security and emergency preparedness issues.
    By way of background, I co-chaired the National Security 
Telecommunications Advisory Committee--that's the NSTAC--Task 
Force on Emergency Communications and Interoperability, which 
published a report in January 2007.
    As the Chairman mentioned, I am also Motorola's 
representative to the Critical Infrastructure Partnership 
Advisory Council. It was this organization, specifically the 
communications sector, that was engaged to help the OEC develop 
this plan.
    I would like to say industry strongly supports the Office 
of Emergency Communications approach of stakeholder 
involvement. It is the single most important element of the 
NECP, as you have seen from the witnesses here at the table, in 
the overall development of this plan.
    I would like to share with you some interesting 
perspectives on key elements of the plan, specifically, 
enhancing resiliency and redundancy for public safety systems, 
ensuring and improving mission-critical voice data and video 
communications, interoperability, improving coordination of 
emergency communications efforts and positioning the public 
safety community to take advantage of emerging technologies and 
solutions.
    So let me talk about regarding enhancing the resiliency and 
redundancy for public safety systems.
    Emergency communications systems need to be designed to 
withstand worst-case scenarios expected in a region. First 
responders have called this need for system operability, that 
systems must first survive and function. Industry recommended 
the development of an emergency communications operability 
program, much like SAFECOM has done for operability, to include 
functionality, security, redundancy and performance.
    The Office of Emergency Communications should develop 
guidance, tools and templates to ensure levels of operability 
and research related to the development, testing and evaluation 
of the standards. Also incentives for organizations to improve 
operability could also be examined.
    Regarding communications interoperability. In addition to 
emergency communications system operability concerns, a further 
major barrier to effective communications is a widespread lack 
of interoperability.
    There are a number of factors for improving 
interoperability, and a critical opponent is the utilization of 
standards-based solutions. Project 25, otherwise known as P-25, 
is that standard. I want to thank this committee for continued 
support of standards-based solutions and Federal funding to 
interoperable systems that are used to improve mission 
effectiveness.
    Additional recommendations for interoperability 
improvements suggests that agencies struggling with deploying 
interoperable emergency communications should consider joining 
regional and State-wide initiatives. State and Federal grants 
should support multi-agency cooperation. Neighboring agencies 
should collaborate with planning and acquiring communications 
systems. With recent trends toward regional, multi-
jurisdictional, multi-disciplinary approaches, emergency 
communications needs of city, county and State users can be met 
while improving day-to-day mission effectiveness.
    Regarding improving coordination efforts, better planning 
of how Federal agencies, Federal civilian agencies, the U.S. 
military, international partners, State and local responders, 
how they interoperate is clearly needed.
    Of particular interest are areas along border regions which 
pose many unique challenges. Local law enforcement agencies and 
border communities are expected to communicate and work in 
conjunction with not just local, State and Federal agencies but 
with Canada and Mexico. To help identify solutions to 
interoperable communications requirements and improve 
collaboration, the Americas Security Act of 2007 establishes 
future demonstration projects along our international borders.
    Regarding positioning the public safety community to take 
advantage of emerging technologies, new communications 
technologies, including greater access to data, new services 
will support emergency communication functions in critical 
ways. Enabling emergency responders, for example, to obtain 
real-time access to voice data and video necessary for the most 
effective completion of their missions. Solutions must be found 
within these new and emerging technologies that address 
emergency communications users demanding requirements, 
especially for security and availability.
    In summary, the NECP lays out actual steps for leaders 
within the emergency response community, key Federal programs, 
the Congress and industry to significantly accelerate the 
current environment and to move the state of emergency 
communications forward. The NECP identifies private sector 
support to communications during emergencies and recovery 
efforts and provides direction for private sector involvement 
in standards development, advanced communications, technologies 
and services development and deployment. In order for the NECP 
to be successful, the emergency response community of Federal, 
State, local, tribal and private sector must work together and 
support each other to achieve Nation-wide interoperability and 
continuity of communications.
    Thank you, Mr. Chairman. I welcome any questions you and 
your colleagues may have.
    [The statement of Mr. Alagna follows:]

                Prepared Statement of Michael L. Alagna
                             July 15, 2008

    Good morning Chairman Cuellar, Ranking Member Dent and other 
distinguished Members of the subcommittee. I am Michael Alagna, 
Director of Homeland Security Strategic Initiatives at Motorola. I 
appreciate the opportunity to provide testimony to this subcommittee 
regarding industry perspectives on the development of the National 
Emergency Communications Plan.
    I would like to begin by commending Congress, and, in particular, 
this committee, for its leadership to support and promote the ability 
of emergency response providers and relevant Government officials to 
continue to communicate in the event of natural disasters, acts of 
terrorism, and other man-made disasters; and ensure, accelerate, and 
attain interoperable emergency communications Nation-wide.
    By way of background, at Motorola, I am focused on homeland 
security, national security and emergency preparedness initiatives. I 
presently serve on the Industry Executive Subcommittee for the National 
Security Telecommunications Advisory Committee (NSTAC). I co-chaired 
the NSTAC Report on Emergency Communications and Interoperability, 
published in January 2007. The NSTAC provides industry-based analyses 
and recommendations on policy and enhancements to national security and 
emergency preparedness (NS/EP) communications. Another of my roles is 
with the Department of Homeland Security's Critical Infrastructure 
Partnership Advisory Council (CIPAC); I am Motorola's representative to 
the Communications Sector Coordinating Council (C-SCC) and was just 
elected vice chair.
    First let me say that Motorola applauds Congressional action with 
the 21st Century Emergency Communications Act of 2006 that established 
in the Department an Office of Emergency Communications to support and 
promote the ability of emergency response providers and relevant 
Government officials to continue to communicate in the event of natural 
disasters, acts of terrorism, and other man-made disasters; and ensure, 
accelerate, and attain interoperable emergency communications Nation-
wide. As a result, Congress directed the DHS' Office of Emergency 
Communications (OEC) to develop a plan to:
  <bullet> Identify the capabilities needed by emergency responders to 
        ensure the availability and interoperability of communications 
        during emergencies, as well as obstacles to the deployment of 
        interoperable communications systems;
  <bullet> Recommend both short- and long-term solutions for ensuring 
        interoperability and continuity of communications for emergency 
        responders, including recommendations for improving 
        coordination among Federal, State, local, and tribal 
        governments;
  <bullet> Provide goals and time frames for the deployment of 
        interoperable emergency communications systems and recommend 
        measures that emergency response providers should employ to 
        ensure the continued operation of communications 
        infrastructure;
  <bullet> Set dates and provide benchmarks by which State, local, and 
        tribal governments and Federal agencies expect to achieve a 
        baseline level of national interoperable communications;
  <bullet> Guide the coordination of existing Federal emergency 
        communications programs.
    Furthermore, Motorola and industry broadly supported the Office of 
Emergency Communications approach of stakeholder involvement as the 
single most important element in the NECP development process. Congress 
directed the OEC to develop the NECP in cooperation with State, local, 
and tribal governments; Federal departments and agencies; emergency 
response providers; and the private sector. Industry involvement was 
coordinated through the Critical Infrastructure Partnership Advisory 
Council (CIPAC), which included representatives from the Communications 
Sector Coordinating Council. OEC also coordinated with industry 
representatives from the National Security Telecommunications Advisory 
Committee (NSTAC) Emergency Communications and Interoperability Task 
Force.
    As a key first phase in the development process, OEC drew heavily 
from a foundation of emergency communications documentation and 
initiatives. These source documents were key drivers for the NECP's 
assessment of the current state-of-emergency communications and also 
helped shape the Plan's strategic goals, objectives, and initiatives. 
For example, the NSTAC report on Emergency Communications and 
Interoperability anticipated incorporating critical elements into the 
NECP, such as: large-scale State and regional shared public safety 
communications networks and supporting Federal grants; yearly 
benchmarks for achieving defined interoperability objectives; Nation-
wide outreach to support emergency response communications; 
consolidation of Federal operations centers to increase coordination 
and situational awareness; and identification of specific private-
sector emergency communications and interoperability support roles. The 
NSTAC report also suggested the establishment and incorporation of the 
following capability objectives into the National Emergency 
Communications Plan (NECP): support for a significantly expanded user 
base; full leveraging of network assets; internet protocol-based 
interoperability; assured access for key users through priority schemes 
or dedicated spectrum; national scope with common procedures and 
interoperable technologies; deployable elements to supplement and 
bolster operability and interoperability; resilient and disruption-
tolerant communications networks; network-centric principles benefiting 
emergency communications; and enhanced communications features.
    During the final phases of Plan development, OEC conducted outreach 
to review the document with industry. OEC once again engaged the Office 
of Infrastructure Protection's CIPAC to review the NECP with the 
communications and emergency services sectors. While a majority of the 
plan is inherently governmental, industry strongly supported the 
primary elements of the NECP, namely:
  <bullet> Enhance resiliency and redundancy for public safety systems, 
        including back-up solutions, to ensure communications are 
        maintained and/or restored following catastrophic incidents.
  <bullet> Ensuring and improving mission-critical voice, data, and 
        video communications interoperability for emergency response 
        providers and relevant Government officials.
  <bullet> Improving coordination of emergency communications efforts 
        between Federal and State, local, and tribal emergency response 
        providers.
  <bullet> Positioning the public safety community to take advantage of 
        emerging technologies and solutions for emergency 
        communications.
    The following comments reflect industry perspectives gained during 
development of the NECP and reviews conducted during the CIPAC process.

    A. ENHANCE RESILIENCY AND REDUNDANCY FOR PUBLIC SAFETY SYSTEMS, 
 INCLUDING BACK-UP SOLUTIONS, TO ENSURE COMMUNICATIONS ARE MAINTAINED 
            AND/OR RESTORED FOLLOWING CATASTROPHIC INCIDENTS

    Emergency communications among those responding to a natural 
disaster, terrorist attack, or other large-scale emergency are critical 
to an effective response. Emergency communications systems need to be 
designed and constructed to withstand worst-case scenarios expected in 
a region. First responders have called this the need for system 
``operability,'' meaning that systems must first survive and function. 
Systems must maintain communications capabilities during all phases of 
a disaster or event. Emergency responders need solutions to account for 
and mitigate the potential impact of communications infrastructure 
damage, including the destruction of telephone lines, public safety 
networks, towers, and sustained loss of power.
    Mission-critical, resilient and disruption-tolerant communications 
networks allow emergency responders and relevant Government officials 
to have assured access to communications channels to support their 
ability to coordinate response and recovery throughout all stages of 
emergencies. Recommendations suggested that users define, specify and 
procure resilient and disruption-tolerant communications networks 
including priority access and restoration services, emergency power 
back-up, site hardening and redundancy, fault and network performance 
management capabilities.
    Industry also recommended the development of an emergency 
communications ``operability'' program, (much like SAFECOM has done for 
interoperability) to include functionality, security, redundancy and 
performance. The Office Emergency Communications (OEC) should establish 
a comprehensive definition of operability in partnership with the 
emergency response community and support the development of guidance, 
tools and templates to ensure levels of operability and related 
research, development, testing, evaluation and standards. The OEC 
should consider expanding the National Baseline Survey to include a 
mechanism for determining and measuring the state of operable 
communications Nation-wide and should gather information to guide and 
measure the effectiveness of future communications operability 
improvement efforts that local, tribal, State, and Federal emergency 
response organizations execute. Incentives for organizations to improve 
operability should also be examined.

   B. ENSURING AND IMPROVING MISSION-CRITICAL VOICE, DATA, AND VIDEO 
 COMMUNICATIONS INTEROPERABILITY FOR EMERGENCY RESPONSE PROVIDERS AND 
                     RELEVANT GOVERNMENT OFFICIALS

    In addition to emergency communications system operability 
concerns, a further major barrier to effective responder communications 
is the widespread lack of interoperability which impedes communications 
and critical information sharing across dissimilar emergency responder 
systems. There are positive steps being taken by leaders within the 
public safety community, key Federal programs, the Congress and 
industry to significantly accelerate the current environment and move 
the state of interoperability forward.
    Interoperability is enabled by Project 25 (or P25), a full suite of 
standards that provides the basis for interoperable digital radio voice 
and moderate speed data communications among multiple public safety 
users, departments and agencies. The Project 25 standards were 
developed by the public safety users and are published by the 
Telecommunications Industry Association. Both DHS and public safety 
users support Project 25 because it is an open architecture solution 
and enhances the transition to digital radio technology.
    P25 improves spectrum efficiency, enables more competitive 
procurements, and displaces vendor proprietary systems that can not 
interoperate. P25 has been endorsed by virtually all public safety 
organizations and has received additional strong support at the Federal 
level, including from DOD, DOJ, and FCC. Additionally, most States have 
either built P25 systems, are in the process of doing so, or have plans 
to do so.
    This committee's strong leadership in supporting P25 has been very 
valuable in assuring that DHS grant programs continue to promote this 
important standard as Federal funds are directed toward improving 
interoperability. Industry supports the NECP's promotion of a 
standards-based approach to interoperability and other emergency 
communications issues.
    Increasingly, the campaign for interoperability has expanded beyond 
voice communications to encompass data and video interoperability that 
will necessitate the expansion of standards efforts to encompass data 
and video applications to improve communication between State and local 
governments and between neighboring local jurisdictions.
    Additional recommendations for solutions to improve 
interoperability capacities of law enforcement, firefighters, and other 
emergency responders to respond to and manage incidents included 
suggestions such as agencies struggling with deploying interoperable 
emergency communications capabilities should consider joining regional 
and State-wide initiatives; State and Federal grants should support 
multi-agency cooperation; neighboring agencies should collaborate in 
planning and acquiring communications systems. The concept of shared 
system architecture for emergency responders, especially in a State-
wide geography brings State agencies and local county and municipal 
first responders together onto a common network for shared voice and 
data services. Recent trends toward regional, multi-jurisdictional and 
multi-disciplinary approaches can meet the needs of city, county and 
local users while improving day-to-day mission effectiveness and 
incident response interoperability when needed.
    To improve the governance issues associated with multi-
jurisdictional communications, industry recommended working with the 
National Governors Association (NGA) as a critical link in overcoming 
the obstacles to interoperability. This organization can provide the 
leadership necessary to develop and institutionalize a governance 
structure that fosters collaborative planning among local, State, and 
Federal agencies, that insures multi-agency coordination of public 
safety communications.

 C. IMPROVING COORDINATION OF EMERGENCY COMMUNICATIONS EFFORTS BETWEEN 
   FEDERAL AND STATE, LOCAL, AND TRIBAL EMERGENCY RESPONSE PROVIDERS

    Industry supports better planning for how the mission-critical, 
interoperable communications systems of Federal civilian agencies and 
U.S. military will interoperate with State and local responders during 
events of national significance. While disaster preparedness and 
response to most incidents remains a State and local responsibility, 
recent events demonstrated the need for greater integration and 
synchronization of preparedness efforts among a dynamically expanding 
user base beyond traditional first responders (e.g., military, National 
Guard, critical infrastructure providers, and public health system 
users).
    Better planning for how Federal civilian agencies, the U.S. 
military, international partners and State and local responders 
interoperate along border regions poses many unique challenges. Local 
law enforcement agencies in border communities are expected to 
communicate and work in conjunction with not just local, State and 
Federal agencies but with Canada and Mexico. The improving America's 
Security Act of 2007 establishes future demonstration projects along 
our international borders will improve collaboration and help identify 
solutions to interoperable communications requirements.
    Industry also plays a critical role for improving coordination of 
emergency communications efforts. While the Federal Government 
recognizes the significance of the communications infrastructure in 
providing essential services during and after a natural disaster or 
terrorist attack, lessons learned demonstrate that vital communications 
restoration efforts were stalled with infrastructure providers having 
difficulty gaining access to repair essential infrastructure. 
Currently, there is no standard Government policy for private sector 
use for access and perimeter control issues, this is especially 
important given that perimeter access policies, in general are subject 
to State and local regulation and enforcement.

    D. POSITIONING THE PUBLIC SAFETY COMMUNITY TO TAKE ADVANTAGE OF 
    EMERGING TECHNOLOGIES AND SOLUTIONS FOR EMERGENCY COMMUNICATIONS

    Future-focused technologies are rapidly increasing the range of 
features, devices, applications and available bandwidth that support 
incident response and recovery. New communications capabilities, 
including greater access to data and new services, will support 
emergency communications functions in critical ways, enabling emergency 
responders, for example, to obtain real-time access to voice, data, and 
video necessary for the most effective completion of their missions. 
Solutions must be found that address emergency communications 
functional requirements, within these new applications, especially for 
security and availability.
    With specific mission-critical enhancements to commercial internet 
and mobile wireless technologies, and advances in innovative gateway 
technologies for bridging land mobile radio networks to Internet 
Protocol (IP) networks, a new class of interoperable voice, data and 
multimedia service can be envisioned with mobility across any and all 
available access networks. Multiband and multimode subscriber devices 
will improve wireless access across these available networks.
    Solutions for emergency communications capabilities need to 
incorporate the range of features (e.g., voice, data, multimedia, push-
to-talk) that best support the needs of emergency communications users. 
Continually evolving emergency responder requirements and the advent of 
new technologies will lead to necessary updates and revisions to 
interfaces and subsequent standards.

                                SUMMARY

    The NECP lays out actionable steps to being taken by leaders within 
the emergency response community, key Federal programs, the Congress 
and industry to significantly accelerate the current environment and 
move the state of emergency communications forward. The NECP identifies 
private sector support to communications during emergencies and 
recovery efforts and provides direction for private sector involvement 
in standards development, advanced communications technologies, and 
services development and deployment. Continued involvement of 
representatives of the private sector as advisors to governmental 
groups developing their emergency communications requirements is 
critical. In order for the NECP to be successful, the emergency 
response community of Federal, State, local, tribal, and private sector 
must work together and support each other to achieve Nation-wide 
operability, interoperability, and continuity of emergency 
communications.

    Mr. Cuellar. Thank you, Mr. Alagna, for your testimony.
    I thank all the witnesses for their statements, and I would 
like to remind each Member that he or she will have 5 minutes 
to question the panel.
    I now recognize myself for 5 minutes on the questions.
    First of all, one of the things I do want to make sure from 
the very beginning is that we do appreciate--the committee does 
appreciate the work that you all did. I think by putting all 56 
States and territories together to talk to each other, you 
know, put the local, the State and the Federal Government in a 
plan where you will be used as a guide to have these 
communications is extremely important. So I--first of all, I do 
want to start off with that, because I think it is very, very 
important what you have done.
    The second thing is, you know, there has been some 
deadlines; and I am going to start off with, Mr. Secretary, 
start off with some questions dealing with the deadline. But I 
do want to start off with I am happy with the work you all have 
done.
    Mr. Secretary, I would like to walk through you this 
particular timeline with you.
    The NECP was due on April, 2008. On June 20, the Department 
announced its grants guidance for the interoperability 
emergency communications grant program. As authorized by the 9/
11 Act, States must submit their application to the Department 
by next Monday, which is July 21. The awards are expected to be 
announced on August 1.
    The statute makes it clear that the IECGP grants cannot be 
distributed until the completion of the NECP. I think the 
statute is very, very clear where the statute says that the 
Secretary may not award a grant under this section before the 
date on which the Secretary completes or submits to Congress 
the National Emergency Communications Plan as required by 
Section 1802. The law is very clear that the Secretary can't--
the Department can't hand out the grants until we have this 
plan in place.
    Today is July 15. How, Mr. Secretary, how does the 
Department expect to announce a grant on August 1, when the 
NECP has yet to be completed? I understand--I believe it is 
pending at the OMB; is that correct?
    Mr. Jamison. It is currently in internal review, and we are 
confident that we are going to get this to the Hill very 
shortly.
    But to address your overall question, one we regret is that 
we didn't make the April deadline. However, I think, based on 
what you heard from some of the panel members here, the reason 
is because we were doing intensive stakeholder engagement; and 
part of that engagement was the development of the State-wide 
plans. So I understand your discussion about not being--or 
having the grants due before the NECP could possibly be 
released.
    The good thing is the data, the hard work, the lessons 
learned that came out of the State-wide interoperability plans 
are consistent with the NECP. You will see that when you get 
it. I think that it is very achievable to get the grants out in 
the time frame that we laid out, as well as getting the report 
up here. I think you are going to find that it all aligns once 
you get the report.
    Mr. Cuellar. As you mentioned, the States worked under the 
gun to meet the Department's deadline, submitted their State-
wide communications interoperability plans. The Seabees, which 
is the engine of the NECP, the States now burdened with the 
delay of the NECP because they would have less time, less time 
to review their justification for the NECP grant.
    My concern again--and, again, I appreciate all the work 
that all of you all have done, but I want to make sure the 
money goes to the States.
    For example, some of the States--let me see who is here.
    Mrs. Miller, the State of Michigan could lose or not get 
the $1 million.
    Charlie, for the State of Pennsylvania, Mr. Dent, it would 
be $1.6 million that could be at risk.
    Bob Etheridge of North Carolina, $866,000 that could be at 
risk.
    Mrs. Christensen, Virgin Islands, $61,000.
    Mrs. Lowey for the State of New York, $7.8 million.
    Mr. Dicks. Seven-point-eight?
    Mr. Cuellar. Well, I didn't want to start a fight amongst 
the States here, but that might be another question.
    The State of Washington, $25 million--no, just kidding--
$997,000.
    Do you want to look at the State of Mississippi? The 
Chairman is not here: $362,000.
    The State of Texas, 23 million in population, would be $3.5 
million.
    But the point here, besides getting our Members all excited 
about the amounts, would be the impact potentially, the moneys 
going to the States.
    Again, I appreciate all the work, but we are almost at the 
1-yard line, and we have to get this done. What do we do about 
this, Mr. Secretary? What assurances can you give us to make 
sure we give the dollars to the States?
    Mr. Jamison. Well, we are going to get the ball over the 
goal line. Since we are at the 1-yard line, we are going to 
finish the play and get the ball in the end zone.
    We understand the criticality just as you laid out; and a 
lot of the discussion--I think Mr. Mirgon mentioned it as well 
in his testimony--is we need to lay out the foundation, 
fundamentals to make sure we have got the training, the plans 
and the coordination in place to execute the rest of the NECP.
    We are confident that the technical assistance that we have 
done through the process for helping the States develop those 
plans are going to allow them to be able to complete their 
grant applications, and we are confident we are going to get 
the NECP delivered up here very shortly and get that money in 
the hands of the States so they can actually start to get the 
foundation built.
    Mr. Cuellar. Two questions. My time is up, but just two 
questions.
    Time, your best guesstimate as to when this plan will be 
done.
    Mr. Jamison. I think in all of our previous conversations 
with the committee we committed to try to get this done in 
July, and we are standing by that commitment. We will have the 
plan up here in July.
    Mr. Cuellar. What day in July, July 16?
    Mr. Jamison. In July. I mean, we are aggressively doing the 
review on this document. We are going to get it up here in 
July.
    Mr. Cuellar. So that basically means no later than July 30, 
I assume?
    Mr. Jamison. Correct.
    Mr. Cuellar. The last question is, you also assure all of 
the Members here and the other Members who are not here, the 
other Members of Congress, that, according to the statute, you 
can't give any grants out, that the moneys will be given to the 
States. You assure them to be given to them on time?
    Mr. Jamison. We understand the implications. We also 
understand the law, that we can't release any of the grant 
funding until we have released a report, and we plan on making 
both of those commitments.
    Mr. Cuellar. So there is assurance in that answer?
    Mr. Jamison. There is assurance.
    Mr. Cuellar. At this time, I recognize the Ranking Member 
from Pennsylvania, Mr. Dent, for questions.
    Mr. Dent. Thank you, Mr. Chairman.
    Under Secretary Jamison, could you please discuss how the 
Department and NPPD have worked to support the stand-up of the 
Office of Emergency Communications? Specifically, how is NPPD 
supporting the Office of Emergency Communications' efforts to 
hire full-time staff?
    Mr. Jamison. Sure, Congressman. I would be happy to.
    Let me, first of all, say that staffing issues in the 
Directorate are not just isolated to OEC. So we spent a lot of 
time on this issue. As you may know, we have dramatically grown 
our chemical security regime and have added inspectors to the 
field. At the same time, we have basically doubled our cyber 
budget. So we have been focusing a lot on trying to keep up 
with those staffing needs.
    What we have done in that area is, one, we have established 
a task force to address the process and address hiring needs 
from not only the date the application of the job announcement 
is approved, until we have someone on board. Since the task 
force has been in place, we have been able to reduce that time 
period by about 45 percent and have the days--the average days 
to get a hire in place moved down to about 58 days.
    We have also put resources behind this. We have ramped up 
the contractual support that we have going into our capital 
human resources office in DHS headquarters. We have looked 
across the Federal agencies and what we can do to try to 
leverage other human resources support, and we have signed an 
interagency agreement with OPM to help bring human capital 
support to this office.
    I guess, finally, I can say the accountability. We are 
measuring the process. We have broken down the process. We 
tried to make sure we eliminated bureaucracy where there was no 
need for bureaucracy, and we are trying to hold people 
accountable for that.
    I think we are about to see the fruits of that labor 
because the pipeline is now full with not only hires in cyber 
and chemical positions, but also it is filling up with OEC 
positions. We have got 11 positions that are in the last stage 
of the process, and we anticipate getting them on board. There 
is going to be two individuals that actually already have start 
dates in the coming weeks, and we have got another 10--or, 
actually, 11 positions that are in the late stages of the 
selection process.
    So the pipeline is filling up. The hard work is starting to 
pay off. I agree that there is nothing more critical than 
staffing up this organization and the rest of my components as 
well.
    Mr. Dent. Can I quickly ask you as well, what is the level 
of senior leadership involvement in the development and review 
of the National Emergency Communications Plan?
    Mr. Jamison. Well, there has been involvement on the 
outreach from the Assistant Secretary level. Assistant 
Secretary Garcia has been involved in some of the outreach 
efforts.
    My involvement and my deputy's involvement and my staff's 
involvement has been around trying to lay out strategic 
direction and to make sure that not only we meet our deadlines, 
which I realize we have missed one, but also to make sure that 
the plan is focused on actionable result, it reflects the input 
from everybody at this table and the people in the field and 
that it has targeted, measurable outcomes and the goals.
    When you get the document, I think you are going to see it 
has short-term, mid-term, long-term goals that are focused on 
measurable results in the field; and I feel like we need those 
measurable results to drive the rest of the programmatic 
priorities that we are trying to build in the office of OEC.
    Mr. Dent. Thank you.
    To Mr. Essid, the Office of Emergency Communications plans 
to deploy regional interoperability coordinators in fiscal year 
2009 to each of the 10 FEMA Regional Offices. However, FEMA is 
also rearranging its Regional Office staff to provide 
additional emergency communications support as part of its 
response role. How will the roles and responsibilities of the 
interoperability coordinator and the FEMA coordinator be 
delineated?
    Mr. Essid. We are working very closely with FEMA. We plan 
to collocate these regional coordinators for OEC in the FEMA 
regional offices. They will have different focuses. I mean, the 
regional coordinators that we plan to hire are going to help 
with the State-wide planning efforts, are going to help with 
the technical assistance coordination and all of the support 
that the States need.
    A lot of States are moving into multi-State regional plans. 
For example, in Indiana, I just spoke at a conference in 
Indianapolis, at a State-wide conference. They had 
representation from Michigan and Ohio there, and they all have 
800-megahertz systems, and they are all going--they are 
brokering themselves partnerships to where the first responders 
can go across the State lines. But they asked for our 
assistance with that. So our regional coordinators can help out 
with things like that.
    FEMA has an operational mission where, if something bad 
happens, they take tactical things and they go and deploy. So 
we will complement each other, but we have been coordinating 
with them a great deal to make sure we don't have overlap.
    Mr. Dent. Is FEMA's creation of a regional emergency 
communications position unnecessary or redundant, given that 
the Office of Emergency Communications has the lead for 
interoperability within the Department?
    Mr. Essid. I see it as they are following what they read in 
the law that they would do to establish these regional groups.
    Again, we don't have an operational role at OEC. We more so 
focus on the national policy, and we have been working with 
FEMA coordinating. But, you know, I don't see a lot of overlap. 
We have been coordinating with them on many different issues, 
and the regional group development is one of them.
    Mr. Dent. Thank you.
    Mr. Cuellar. Thank you, Mr. Dent.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses.
    In accordance with our committee rules and practice, I will 
recognize Members who were present at the start of the hearing 
based on seniority of the subcommittee, alternating between the 
majority and the minority. Those Members coming in at a later 
time will be recognized in the order of the arrival.
    I ask without--if it is without objection--Members to skip 
the order. We were supposed to have Mrs. Christensen, but Mr. 
Dicks has a priority meeting at 10 so, without objection, if 
there is no objection to unanimous consent, I would ask Mr. 
Dicks to be recognized at this time for 5 minutes.
    Mr. Dicks. Thank you, Mr. Chairman, and I am asking this 
question on behalf of the Chairman.
    Mr. Jamison, as you know, the committee is greatly 
interested in the Department's transition to the next 
administration. When Secretary Chertoff testified before the 
committee last September, I asked him pointedly if he was 
planning on serving out his term under the administration. In 
light of rumors that you plan to leave the Department by the 
end of the summer, I ask you the following: Do you plan to 
leave your post as the Under Secretary of the NPPD before the 
end of this administration?
    Mr. Jamison. You must know something that I don't know, 
because I have no indications of leaving before the end of the 
administration. I am committed to get the job done; and when I 
signed up for this job and when I went through my confirmation 
in December, I stated that I am planning on staying throughout 
the administration.
    Mr. Dicks. That is good to hear. So I don't have to ask the 
rest of that question.
    Let me ask you, going back--Mr. Dent asked a question about 
the personnel issue. It is somewhat striking that it is now 
July, 2008, and the OEC staff with less than 10 FTEs. Why is 
that?
    You have asked for funding, as I read it here, for 42 FTEs 
in fiscal year 2009, $38.3 million. To date, the OEC has only 7 
FTEs and even though Congress provided $38.6 million for 38 
FTEs for fiscal year 2008. What is the problem? Why can't we 
get these people on board?
    Mr. Jamison. Well, as I stated in the other answer, I mean, 
we have had to focus a lot on human resources and trying to get 
people on board. We focus a lot--I think we are going to make 
the commitment to have our FTEs on board by the end of the 
year; and, therefore, the budget of the 42 FTEs will still be 
appropriate.
    We have got the pipeline full. Unfortunately, one of the 
reasons that we haven't gotten more people in place is because 
we had about 10 positions that we didn't get the skill sets 
that we were trying to get through the process and we had to 
re-advertise.
    Mr. Dicks. Do you have an outside private sector company 
that provides you with the names for these people?
    Mr. Jamison. We have got actually a broad recruitment 
effort that we go under. I mean, we market, depending on the 
position, to the publications where we need to go find people 
with those skill sets in the associations. We also use USAJobs 
to get staff on board.
    Mr. Dicks. They are the ones--we were told that USAJobs is 
the principal source of people for the Department of Homeland 
Security.
    Mr. Jamison. That is the Federal Government's Web site that 
we post all of our job listings on, and we use that resource. 
But we also try to make sure that our----
    Mr. Dicks. Has that been effective? It doesn't sound like 
it has been very effective for you.
    Mr. Jamison. Well, I wouldn't say that the Web site and 
that resource is the issue. There are a lot of issues as you go 
in and break down the hiring process. We have broken it down to 
nine steps for tracking accountability on every step of the 
process to get people on board. A lot of issues to make sure we 
get the resources to process the applications, make sure that 
we can get people through the security process and, quite 
honestly, make sure that we have gotten the right people in the 
pipeline.
    To your point, the Web site is helping seek people in the 
pipeline. We need to continue to make sure we are beating the 
bushes, so to speak, to get the right people. This has been an 
ongoing issue.
    Don't get me wrong. We have focused a lot on it. We have 
got a pipeline full of people that are heading to 104 positions 
that hopefully are going to have--in process----
    Mr. Dicks. How many people do you have working on the 
hiring aspect? How many people--Mr. Essid, does this come under 
your responsibility?
    Mr. Essid. Well, yes, sir. I mean, to get positions into 
the Office of Emergency Communications, it does. We review the 
applicants that are given to us and we see if they have the 
skill sets required for the positions. When we----
    Mr. Dicks. How many people within your group focus on this?
    Mr. Essid. Well, I mean----
    Mr. Dicks. Or you do it yourself?
    Mr. Essid. A lot of it we do ourselves to see if these 
people, once these lists are presented to us--after we 
interview, sometimes candidates have the required skill sets 
and experience and sometimes they don't. We have had to go out 
for additional re-advertisements for several positions.
    But some of the positions we are hiring for are very 
difficult to find, like radio engineers or frequency 
coordinators. People with that kind of background, they don't 
grow on trees; and we try to ask our friends here at APCO and 
the other groups that help support us--when we have 
announcements, we send them out through those associations to 
try to increase the numbers of applicants.
    Mr. Dicks. Finally, what is the consequence of not being 
able to get these people on board? Has it affected your ability 
to do your job?
    Mr. Essid. Right now, sir, I mean, we have been very 
successful in accomplishing the task that we have been 
assigned. Of course, we want to get these folks on board, and 
we are working as hard as we can to get them on board. That 
will help us as we increase our role and as all the States have 
plans now, for example, and they are going to need more support 
than ever. That will help us. But, right now, it hasn't impeded 
us from doing what we need to do.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Cuellar. At this time, I would like to recognize the 
gentlewoman from Michigan, Mrs. Miller, for 5 minutes.
    Mrs. Miller. Thank you very much, Mr. Chairman. I 
appreciate all the testimony of the witnesses. I tried to 
listen intently, and I thought it was very interesting, and 
appreciate your service to your individual and respective 
communities and certainly to our Nation as well.
    I have a question specifically about a point actually made 
by Mr. Alagna. I hope I am pronouncing your name correctly. But 
I think my question is for either Secretary Jamison or Director 
Essid.
    Let me just start by saying, a principal advocacy of mine 
has been northern border protection. As the Chairman mentioned 
about Michigan, of course, Michigan is a northern border State, 
it is interesting I think as the efforts in our Nation to 
secure the southern border have been quite successful, what is 
happening is a lot of the problems that we have had along the 
southern border are now being exacerbated along the northern 
border as well. We see a lot of activity that is increasing 
there.
    Actually, in title III, section 302, of H.R. 1, there is 
actually this provision, as you had mentioned, sir, about the 
interoperability demonstration for six communities to be 
designated. It says that no fewer than three of the communities 
shall be located on the northern border and then three on the 
southern border as well.
    I ask that question because, in my State and in my district 
specifically, we have a number of unique dynamics that I think 
would lend itself ideally to be one of these demonstration 
projects. So I am, in full transparency, let me just make a 
pitch for this.
    I am sort of here. In Michigan, it is great; you always 
have a map of your State on the end of your arm here. But we 
have the Blue Water Bridge, which is the second-busiest 
commercial artery along the northern tier. Last year, we had 
about 5 million crossings across that bridge. It is actually 
the conduit and the genesis then for both Interstate 69 and I-
94 as well, critical arteries into the Nation. The economics 
are obvious.
    We have the CN rail tunnel entry that runs under that 
bridge across the St. Clair River, which is the busiest rail 
entry into the Nation, actually. Immediately across the St. 
Clair River on our Canadian shores is something we call 
chemical valley, which is the largest concentration of 
petrochemical plants, I think in the hemisphere, perhaps next 
to New Jersey, but very, very large. Of course, all sitting on 
the banks of the Great Lakes, which is the freshwater drinking 
supply, 20 percent actually, of the freshwater drinking supply, 
one-fifth of the entire planet.
    Today, as we speak, actually, this afternoon, that 
particular county in my district, St. Clair County, is meeting 
with our Canadian counterpart. They have established something 
they call the Cross Border Community Planning Projects, and 
they are talking about interoperability and how they can better 
communicate in the case of a terrorist attack, in the case of 
any kind of circumstance that might happen to one of these 
critical arteries or the water or what have you.
    So my question is, what is the criteria that you are using 
to select the communities for these demonstration projects? If 
you could flesh that out a bit for me. What are you looking for 
from the communities, et cetera? Thank you.
    Mr. Essid. Yes, ma'am. Well, right now, what we know with 
section 302, as defined by OMB standards, all communities with 
populations greater than 10,000 along the northern border will 
be considered for these interoperability pilot projects. OEC 
has been working a lot on what will be the criteria for such a 
process to select these communities.
    We have got some pretty good starts on it, but, again, 
right now, there is no funding to support this. So as the 
funding becomes available, then we will continue to work on 
those and finalize those. It will have to be some type of a 
competitive process for selection, because as you can imagine, 
we have heard from many communities that have heard of this 
project and, you know, are very interested.
    But the northern border is just as critical as our southern 
border communities. You are right that there will be three and 
three, three on the northern border and three on the southern 
border. But right now, we have got a start on some criteria, 
and we have been visiting a lot of the border communities to 
try to ascertain a little bit more about the situations they 
deal with. But nothing has been finalized at this point.
    Mrs. Miller. Well, I would just suggest, obviously, as you 
are putting together and doing the construct on your criteria, 
just because you are a community that has 10,000 people on the 
border as opposed to a community that is actually the host for 
one of the most critical infrastructures and certainly 
economically into the Nation, not only the bridge, as I say, 
but also the rail tunnel that is there, and all of these unique 
dynamics, it really is I think an extraordinarily unique 
situation in that area. I am certain that I could be echoed by 
both our United States Senators and our Governor and many other 
States even along the--within the Midwest there, is a very 
unique locale.
    So I would ask as you are developing this criteria, please 
keep us up to speed, if you would. We would like to be in the 
loop on the thing. I think it is a very important issue, not 
just for the area, but for the Nation as well.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Just to follow up, we have some Members of the 
Appropriations Committee here, but I believe the House full 
committee is requesting to appropriate $30 million for this 
program, and I believe the Senate has what, $10 million. So 
there is something hopefully that our friends in the 
appropriations will keep the $30 million and hopefully keep it 
at $30 million instead of the $10 million that the Senate is 
looking at. But, anyway, I just wanted to mention there is 
something in the pipeline.
    At this time, the Chair recognizes Ms. Christensen, the 
gentlewoman from the Virgin Islands, for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman, and welcome to 
the witnesses.
    To Secretary Jamison and Director Essid, I am also 
concerned about the vacancies, but I also see that many of the 
positions that are filled are filled by contractors. Is there a 
particular reason why there seems to be a propensity? Is this a 
policy of the Department, or is it the nature of the positions? 
It is in some of the appendices that were sent to us. Many of 
the currently filled ones are filled by contractors rather than 
Government employees.
    In answering that, would you also tell me, we actually had 
a hearing about the diversity of the Department or the lack 
thereof, and in your recruitment, are you reaching out to HBCUs 
or minority-serving institutions? I am sure there are some very 
bright people coming out of those institutions that could fill 
these positions.
    Mr. Jamison. Sure, let me answer that. So, first of all, on 
two fronts, we have talked a lot with this committee about the 
challenges of trying to get people on board and trying to ramp 
up very quickly. So the contractors you see in place are an 
effort to try to get resources quickly into the pipeline so we 
can start to build the capabilities we need to deliver on many 
important priorities this committee has laid out.
    That being said, however, we also have, as we continue to 
ramp up and address the many vacancies we have had in the 
directorate, we have also had an effort underway to do 
conversions to make sure we convert those contract employees to 
FTEs, mainly to make sure we have the most efficient use of 
Federal resources, and we are doing an evaluation on that, but 
also to make sure we have stability headed into the transition. 
So we have targeted over 150 positions across the directorate 
to be converted.
    To your second point, we always look at the diversity 
issue, and, quite honestly, we are looking across the 
university spectrum. We have been focusing on this a lot from 
the cyber perspective just because of the demands, the needs 
that we have there, and we have actually brought some diverse 
leadership on board recently in that arena. We look to apply 
those same principles as we continue to fill out the rest of 
the needs, especially OEC's.
    Mrs. Christensen. Thank you.
    Mr. Mirgon, Chief Werner, Mr. Alagna, in Mr. Mirgon's 
statement he talked about the fact that the narrowband mobile 
networks are what we are going to have to rely on for quite a 
while into the future. As you have reviewed the plan, I 
believe, does the plan address to your satisfaction the 
reliability and the resiliency, the operability of the 
narrowband mobile networks that we are using, and is there 
something we ought to be doing to speed up the availability of 
broadband, since that is what would work best?
    Mr. Mirgon. I believe the plan does sufficiently state it 
at this point. We have to remember that, as Chief Werner said, 
this is a national plan. It is like a large umbrella. It cannot 
relieve local government of the responsibility of providing 
their narrowband radio systems and doing it properly. So, I 
believe the plan does address it properly and addresses the 
issue that you have got to be able to talk to each other when 
you need to, because in some of the most major incidents in 
this country, we have seen that even the largest of agencies 
can't do it themselves. They bring in resources from other 
places. So I believe the plan did that very well.
    Excuse the mush have between my ears, but I don't recall 
the second part of your question. Could you restate it?
    Ms. Christensen. Just what--because broadband is the 
optimal, what can we be doing to speed up that?
    Mr. Mirgon. As far as the broadband, I believe we need to 
continue down the path we started. The public-private 
partnership is absolutely imperative. The only way we will get 
there as public safety is if we partner with those private 
organizations to build this public-private partnership. It is a 
mass undertaking, but there is a lot of information people need 
on the street that is being converted to IP data, and that is 
the only way to deliver it. That is also our best hope for 
border issues on interoperability. That IP is pretty well a 
world standard, and as we start looking at some of the 
technology used on the border, it is not necessary compatible. 
But IP is, and this gives us our hope and our chance to be able 
to resolve some of the border issues, the interagency issues, 
and to be able to communicate across different agencies.
    Mr. Werner. If I may, I concur with what Mr. Mirgon said.
    One additional point is, the plan outlines outcomes, 
performance measures, by which we all can now see and direct 
our resources to work toward that common goal which we haven't 
seen in the past. So now the State plans, the local plans, are 
all meshing into a common direction, where we never had that 
roadmap before. So I think you are going to see the positives 
of that.
    I agree with the broadband network, that is our next best 
effort of public safety communication, especially in the way of 
data, and enhancements of being prepared for all hazards and 
terrorist attacks.
    Mr. Alagna. Regarding improvements to operability, I think 
the plan lays out roles for industry, and I think industry 
needs to be more fully integrated into national-level exercises 
that in fact test the ability to do restoration and improve the 
resiliency of these networks.
    Another area for consideration is, as the Department goes 
to regional emergency communication support, we heard this 
discussed, whether it is FEMA or the OEC, there is a call for 
industry to be engaged in that regionalization process.
    So I think more tightly integrating industry into the 
overall planning process and some of the operational components 
would in fact improve the resiliency restoration of some these 
networks.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Just a little point of observation before I go 
to Mr. Etheridge is that it seems like the witnesses, I know 
you all were participants or your groups were participants, 
that you all know what is in the plan, but we as Members of 
Congress that provided the legislative oversight, we haven't 
been provided the information.
    So I hope, Mr. Secretary and everybody, you understand why 
we as the oversighters, if I can use that term, feel a little 
uncomfortable that you all know exactly what is going on, but 
we haven't seen it yet. So I hope you understand where we are 
coming from.
    At this time I would like to recognize the gentleman from 
North Carolina, Mr. Etheridge, for 5 minutes of questioning.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me thank you 
for this hearing.
    Thank you for being here, and let me echo what the Chairman 
just said: It is kind of marred to fly blind, but in effect 
that is where we are, and it would be helpful to have that.
    Let me return a little bit to the question the Chairman 
asked earlier, because I happen to believe that emergency 
response really depends on a partnership, a partnership with 
the Federal Government, State and local personnel who really 
act as the first line of defense. And 9/11, of all the things 
it taught us, that is the one thing we learned very quickly, 
because even though we saw it on TV and we have had a lot of 
things happen since then, when the first call went out, the 
last time I checked, it didn't ring here in Washington, DC. It 
rang in the local fire department, the local police station, 
the first responders, et cetera.
    So that is a critical piece, and I think we need to keep 
that in mind in everything we do. Sometimes we get caught up in 
plans and other stuff and forget who really delivers the 
service, and we are so busy shaking things around.
    So let me get to the question, is that the Federal 
Government, it is important for us to support the work of the 
locals. We have to have a plan. But we have to work together 
and do that. DHS, as you talked about earlier, and I want to 
come back to that, has sort of set a deadline of December 2007 
for the State-wide communications interoperability plans, and 
the State met those plans. They had to hustle to meet them. The 
Chairman touched on this earlier, but we now are finding out, 
at the Federal level, we aren't meeting our plan.
    So I guess my question to you is, now that the grant 
guidance has gone out for interoperable equipment grants 
program--and we know the deadline, we talked about it just a 
minute ago. So my question--and I am not going to you, Mr. 
Secretary; I am going to the folks who have got to make the 
decisions and deal with it.
    Mr. Mirgon and Mr. Werner, I want to know from you, even 
though you represent large organizations, I would like to hear 
from you, though, in your regard how the delays may be 
affecting the first responders back home? What is being lost in 
the first round of the interoperable communication grants 
because States can't use the NECPs to make their proposals? I 
mean, it has got to have an impact. I would appreciate hearing 
from you on that response, and then I will go to Mr. Jamison.
    Mr. Mirgon. As much irony as this may sound like, even 
though it tends to run late, it is a positive impact. The SCIPs 
that were provided by the States brought a major awareness to 
the States themselves of how important interoperability was and 
how difficult the task is and how few people that are out there 
that understand how to build such a plan or construct such 
networks.
    One of the personnel problems they have today within OEC is 
that these specialists that they keep referring to, you know, 
the knowledge skills and abilities, it is rare. We have a hard 
time recruiting them at the local level; let alone, I can't 
imagine trying to do it at the national level.
    So, yes, it is running late, and local governments were 
getting tight time frames from the Federal Government. But 
there are many of us who participate in such things as SAFECOM, 
our conferences and the SCIPs and the grant reviews. We will 
step up to the plate. We get it. This is an important task. I 
don't know of any State that didn't ultimately step up to the 
plate and get the task done, and I don't know anybody out there 
that is in a senior management position, like Chief Werner and 
myself, that don't understand the complexity of such a project 
and the skill set required to do it and the lack of available 
people out there to do those tasks.
    So we feel the pain at the local level. We truly believe 
they have provided the best effort to get there, and in 
partnership, we will get it done, and we will make sure that 
the citizens that, whether they are hired to protect or elected 
to oversee and provide leadership to them, aren't let down in 
the end. We believe that is going to happen.
    Mr. Werner. I think I would have to agree. The difference 
would be if we happen to come forward with a national emergency 
communications plans that was in conflict with the SCIPs, we 
would have a problem.
    I think the good news is that the plan that comes forward 
not only is embracing of those SCIPs, but is a enhancement to 
the direction of where we head next.
    Mr. Etheridge. So if what I am hearing is correct then, all 
is well?
    Mr. Werner. Well, I don't know that we would go that far. 
It is looking better, and I think as long as we move closer 
with the timeline, and we don't have longer delays, I think we 
are going to be okay.
    Mr. Etheridge. Well, let me just finish up, Mr. Chairman, 
if I may, because part of the question is whether we will end 
up with a bunch of different State or local plans or whether 
they are going to be coordinated interoperability? Are you 
telling me they are all going to be coordinated, or are we 
going to have a bunch of different plans out there that feed 
into a the National plan?
    Mr. Mirgon. I would just like to say, it is not going to be 
perfect. There are so many things out there----
    Mr. Etheridge. I understand it is not going to be perfect. 
My question is, will we have a bunch of separate plans that the 
States have but together that work in those States but they 
don't necessarily feed and coordinate?
    Mr. Mirgon. I think we will have a significant majority 
that are coordinated. There may be one or two that may look 
kind of odd, but in the end, the vast majority will be 
coordinated and will accomplish the goal.
    Mr. Etheridge. One or two means you are going to have 48 
that are and two that aren't?
    Mr. Mirgon. It potentially could happen, just because of 
the idiosyncrasies that happen within certain States. You know, 
Nevada, which I come from, tends to be a little odd at times. 
So I just want to recognize reality.
    Mr. Werner. It will take a couple--it will take several 
years for us to really shake this all out, because everybody is 
learning in the process. But, again, I think the key point is 
the National Emergency Communication Plan is the first time 
that we will start having specific outcomes that the State 
plans must be working toward, so we have performance measures 
that will help to relieve some of that.
    Mr. Etheridge. Okay.
    Thank you Mr. Chairman. Thank you for your patience. I 
yield back.
    Mr. Cuellar. Let me just say this, that I want to recognize 
Mr. Lowey right now, but Members, since you are the last 
person, if you all want to go for another round of questions, I 
will be willing to go ahead and do that.
    But at this time I would like to recognize Ms. Lowey from 
the great State of New York.
    Mrs. Lowey. Thank you very much, Mr. Chairman.
    I want to thank Chairman Cuellar for holding this hearing.
    For several years, Chairman Thompson and I championed the 
creation of an Interoperable Communications Grant Program, a 
goal that came to fruition with the passage of H.R. 1. The 
issues before us today, the execution of the emergency 
communications title of the legislation, are some of the most 
important we will consider all year.
    As someone who has spent so much time on this issue, I 
closely followed the release of the national emergency 
communication hearing with Under Secretary Jamison and 
Assistant Secretary Garcia, and I asked and we all kept asking, 
when is the NECP being released?
    Mr. Garcia testified: We are working to have it by July. He 
went on to say the Department expected to have the $50 million 
in fiscal year 2008 funding distributed by the end of the 
fiscal year.
    Not only has the Department not yet submitted the NECP, but 
unless it is released soon, it seems unlikely that States will 
receive final awards from the fiscal year 2008 Interoperable 
Communication Grant Program by the end of the year. I want to 
make it clear that this is not acceptable. The release of the 
interoperability funds is contingent on the release the NECP, 
and first responders can't wait on bureaucratic delays to 
receive funds to advance communications efforts.
    The Chairman mentioned the $7.8 million that New York would 
or may or maybe some day may receive. But I want to make it 
clear that this whole project is $2.2 billion, and there is 
still a lot of work to do.
    We often hear problems when a report is completed by an 
agency but then languishes in the Office of General Counsel or 
OMB. For an administration that claims to loathe bureaucracy, 
it certainly has mastered the art of losing initiatives in the 
bureaucratic maze.
    I want to join my Chairman and colleagues, it is pretty 
upsetting. I am glad you all have seen the report, but this is 
still delayed. The report has probably been done, and we 
haven't seen it.
    So maybe you can tell me, Mr. Jamison or Mr. Essid, has the 
report been sent to the Office of General Counsel or OMB? If 
so, when? Where is this report, and can you give us a preview 
as to what will be in the NECP?
    I mean, why is there this big secret? We are very concerned 
in New York. I am concerned with what Mr. Dicks said, because I 
think this office was so important, and the Chairman and I were 
pretty critical in getting the office, and you only have seven 
people there rather than the 42. So where is the report now? 
What is taking so long? Who is holding it up? Come clean.
    Mr. Jamison. Congresswoman, as we testified earlier, the 
report is in the last stage of review.
    Mrs. Lowey. So Mr. Essid wrote it. He did what he had to 
do?
    Mr. Jamison. The report is written. It is in the final 
stages of----
    Mrs. Lowey. So where is it? Who is holding up it up in the 
bureaucracy?
    Mr. Jamison. It is in the late stage of review.
    Mrs. Lowey. Who is reviewing it? How long has this ``late 
stages'' been reviewing it?
    Mr. Jamison. We would have to come up and give you a 
briefing on the whole details of every stage of the review 
process.
    I think it is important to say we understand what you are 
saying about getting the funds out. As I committed to the 
Chairman earlier, we are going to make sure that none of the 
funds go undelivered to the States. We are going to make sure 
that we have met our commitment to get the plan up here in 
July.
    I think it is important to note, based on the conversation 
of why they have seen the plan from our partners in the local 
governments here, is because they are involved in writing the 
plan, and that is inherently what delayed the process to make 
sure we had full involvement.
    Mrs. Lowey. Excuse me, but only because--but maybe since we 
are the last here, I can pursue this. We know you are delayed. 
We are aware of this. But I have the feeling that Mr. Essid 
might have written the plan and it is sitting somewhere, and 
people don't understand that, on the local level, this is 
really urgent.
    As a New Yorker, we are getting $7.8 million. I know 
several of my colleagues kind of laughed at that, but it is a 
$2.2 billion program, and this is critical. I remember the 
World Trade Center. I was down there. There has to be more of a 
sense of urgency.
    So I think maybe you can take a message back that this 
committee is really upset with the bureaucrats who are holding 
this up, because we may not be able to get the money by the end 
of the year if this continues to delay and delay.
    So I think this committee needs a report about where this 
is, why it is being held up, because our local first 
responders, our police and firefighters, need this money, and 
they need it now.
    Now, I also want to say, in addition to the fact that 
instead of 42 people, there are so many people losing jobs 
that, frankly, the fact you only can find seven people, either 
there is something wrong with the recruiting process, something 
wrong with the personnel department, or maybe we should be 
training more people at the local level to do this work, 
because it is so important. Seven people, and there should be 
42, is amazing.
    Then I noticed here the urgent mission of OEC may not be 
reflected in the organization chart. In order to find the 
office, you have to search for the National Protection and 
Programs Directorate, then the Office of Cybersecurity and 
Communication. OEC is one of the component programs with the 
Cybersecurity and Communications office.
    If you ask our local police, firefighters, EMS workers, 
mayors, what is most important, it seems to me this should be a 
more high-profile office. Mr. Essid is charged with 
coordinating emergency communications for Federal, State, local 
and tribal governments, and I am very concerned that, as hard 
as you work, that burying the office under Cybersecurity may 
prevent it from accomplishing its mission.
    So it seems to me the Department doesn't need another major 
reorganization. However, maybe there can be some tweaking by 
the next administration, and if anyone would care to share with 
us whether it would be more beneficial to give more prominence 
to the Office of Emergency Communications, I would appreciate 
hearing from you.
    Anybody care to share? When you are a local person, do you 
have trouble finding this office?
    Mr. Mirgon. Only if we actually had to physically go to 
their office, because being from Nevada, I have trouble finding 
just about anything out here.
    As far as prominence of the office, it absolutely needs to 
be raised. This is a critical issue across the country. Don't 
think for one moment my comment is that I don't think they 
treat it well within Homeland Security. I don't think that is 
the case.
    The case is how it is seen nationally by Governors, local 
governments, other people, is for them to understand it is 
important, they look at that chart also and go, well, it can't 
be that important to the Federal Government.
    But this is critical. If people can't talk to each other, 
whether it is cross-border or cross-town, we have some major 
issues. So, yes, there would be some very strong support to 
raise the prominence of this office to help raise this issue 
and move this topic forward.
    Mrs. Lowey. Mr. Chairman, in conclusion, I just want to say 
that in June, the Department released the fiscal year 2008 
interoperable emergency communications grant program guidance 
which allows funding, here we are, for planning exercises, 
training, but prohibits funding for actual equipment.
    This is ridiculous. Many State and local governments, 
frankly, have not waited for the Federal Government to take 
action. In New York, the State and many local governments, 
including Westchester, Rockland Counties, already have 
interoperable plans in place. They don't need money to write 
another plan. They need money to build the network backbone and 
purchase radios.
    So, perhaps, just in conclusion, Mr. Chairman, maybe Mr. 
Jamison and Mr. Essid can tell us why the Department is 
prohibiting fiscal year 2008 funds from being used for 
equipment? Maybe someone just doesn't get it there. I don't 
know if you were down to 9/11, if you were down there at the 
World Trade Center when those beautiful 300--over 350--
firefighters were going up when they shouldn't have been going 
up. Why are we just giving money for planning, and they still 
can't use it for equipment?
    Mr. Jamison. Congresswoman, first of all, to answer your 
question, I spent 6 months in New York City in the recovery 
operations around Lower Manhattan, so I saw the devastation. I 
saw the impact on your constituents. Quite honestly, that is 
one of the things that drove me to be a part of Homeland 
Security. So we understand that issue.
    Mrs. Lowey. I just want to say that I personally appreciate 
your service, and, therefore, I don't want to ask you to 
squeal. But maybe you can tell us, who is holding this up? 
Where is this plan? Who doesn't see the urgency?
    Mr. Jamison. I think everybody sees the urgency, and I 
think the urgency to get it right is important as well, which 
is why we focus so much on the partnership, making sure that we 
participated in the State-wide planning process, making sure 
that we get this right.
    To address your earlier question about why the grants were 
limited to non-technical equipment, a lot of the capabilities 
gaps work and a lot of the work we have done through the State-
wide planning process has identified there is fundamental 
governance, planning, coordination, other fundamental building 
blocks that continue to be barriers to getting interoperability 
and continuity of operations in place across the States, and I 
would be happy to have my colleagues comment on that.
    We want to make sure we get those fundamental building 
blocks in place, in addition to the fact that if you go back 
and look at the grant programs across DHS, if you try to track 
it, we spent approximately $2.5 billion on interoperability, 
and about 93 percent of that money has been spent on technical 
equipment, and we still have many challenges in getting 
interoperability derived. We need to focus on some of the 
fundamental building blocks, and then the eligibility for the 
other grant programs, UIC funding, can help address some of the 
technical equipment needs.
    Chris, I don't know if you want to take a shot at that as 
well.
    Mr. Essid. Well, I would like to add that a lot of the gaps 
we collected from the State-wide plans, first of all, earlier, 
it was asked if the State-wide plans could all be different. We 
have standard criteria for all the plans. So, for the first 
time, they all hit a standard criteria, same governance 
structures and things of that nature, throughout the Nation. 
But these were the gaps that were communicated in those State-
wide plans, the focus areas for this grant.
    In New York, they are building a very expensive State-wide 
system. But they are going to have needs. This grant can still 
help them with other needs. While they may not buy radios, they 
are still going to have to work out standard operating 
procedures on how that State system communicates with all the 
locals or programming certain frequencies into the radios. All 
that stuff costs a lot of money. This grant will help support 
that system. Let me be clear about that. There are so many 
needs they are going to have; this grant will help them do a 
lot of those other needs. While it might not be buying so many 
radios, it is going to be taking expenses that they would have 
to find other funding for to support that State system. So that 
is one thing I would like to just add. It will be beneficial to 
New York.
    Mr. Mirgon. Ma'am, if I could add something here, from a 
local perspective, the interoperability problem today is partly 
because of equipment, but we spent hundreds of millions of 
dollars a year across this country for communications 
equipment.
    Part of us what got us to this problem is we failed to 
plan. We failed to have the foresight to bring it together. We 
as locals support the concept, those of us who have been in 
this mix and been on both sides of this coin, support this 
concept of planning, because without that plan and without the 
training to use the equipment, all of the equipment we buy in 
the world will sit on a shelf or will not be able to be used 
when that disaster strikes again. This planning is absolutely 
paramount to have for the success of the entire plan and the 
success of the first responders in the field.
    Thank you.
    Mrs. Lowey. Let me--yes, sir?
    Mr. Werner. One of the things we found, just to reinforce 
what Mr. Mirgon has said, is we found, after 9/11, after 
Katrina, there is a rush to bring us money for equipment, and 
we are always willing to take it. The problem is we were taking 
the money and trying to figure out after the fact about how we 
best do it, and we were doing it locally. We weren't doing it 
regionally. We weren't doing it State-wide.
    Now, for the first time, we are bringing people together. 
We are having conversations. We are doing SCIPS. We are 
planning, and the people are starting to talk to each other. 
What we found is that billions of dollars have been spent on 
technology, but it won't matter if you and I have not agreed to 
talk to each other in a planned system, in a program that 
works.
    So I think this piece of the money is really designed to 
help bring people together to the table to pay the expenses, to 
get things really moving in a planned program that will move us 
toward that national emergency communications plan.
    Mrs. Lowey. Let me just thank you very much.
    Thank you for your indulgence, Mr. Chairman.
    I just want to clarify: I have been saying, as has the 
Chairman and has the big Chairman, that we need a plan, for a 
very long time. You all seem to know about this plan. We don't 
have this plan. There is a sense of urgency here that maybe 
some people don't feel.
    Look, I agree with you. This equipment that people are 
buy--are buying--will be outdated next year. We know that. Many 
of us up here don't even understand what A does and B does and 
C does, because now you have D, E and F. You probably get it 
and understand what is coming out here.
    But what I am concerned about is that the bureaucracy 
somehow is holding this plan, rather than completing this plan 
and getting it out there, and that prejudices those States and 
communities who have been responsible and have put a plan 
together and want to begin completing that plan by getting the 
equipment in place. So that is why we are concerned that there 
are seven people there instead of 42. That is why we are 
concerned that it isn't a high profile in the Department. You 
can't even find it.
    So I would just say, maybe you could have a private 
discussion with the Chairman. Let him know where this plan is 
that many of you worked so hard on, and move it and get it out, 
so by the end of the year, we can implement it. God forbid, God 
forbid, if something else happens, sir, and I respect your 
involvement here and all of those involved in 9/11, people are 
going to feel pretty bad if plans are still sitting in the 
bureaucracy someplace, and they are not out there.
    So I just encourage you, if you need some help, if you 
can't recruit fast enough, there are a lot of unemployed people 
that could be trained perhaps, maybe not at that level.
    But I have spoken enough. I think I have made my point. 
Thank you for your service.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Cuellar. Let me follow up with a couple of questions, 
points, that the Chairwoman of the Foreign Affairs Committee 
has made.
    First of all, last month I sent a letter to the House 
appropriators requesting that the director of the OEC be 
elevated from a GS-15 level to a Senior Executive Service 
position, to move it up. The Chairwoman here did push it, and I 
believe the full committee has now approved this. Of course, we 
are still, on the House side, waiting for that.
    So, Secretary Jamison, I know we still have a process in 
the appropriations, but I think if everything goes according to 
plan, the House is asking that this be elevated. So if you want 
to stay ahead of the curve, it would be nice if in the last--to 
the end of the administration, if you could take some proactive 
steps on this, because I mean, it is going to be done one way 
or another. It would be nice if you would take that into 
consideration, No. 1.
    The second thing is we have been hearing from the States 
about the input. But what about the Federal input? The ECPC 
includes the Department of Homeland Security, Defense, 
Commerce, Justice and the FCC, that serve as the primary 
mechanism for coordinating the Federal input into the NECP. 
What about the Federal input? We haven't seen the State. We 
haven't seen the Federal. We are the oversight mechanism in 
this process, and we still haven't seen this.
    We were supposed to be--when were we supposed to have 
gotten the executive summary?
    Yesterday. We still haven't seen an executive summary.
    One of the things that really concerns me is that sometimes 
in Washington, we are seen as ``they'' versus ``us'' or ``us'' 
versus ``they.'' We are all on the same team. We are all on the 
same team together. If Members of Congress request a copy of at 
least an executive summary, it would be nice for us to get a 
copy of the executive summary, because, again, I emphasize, and 
I don't understand what this mentality is of a ``us'' versus 
``them'' and all that. We are on the same team together.
    Mr. Secretary, could we get a copy of the executive 
summary? We understand it is a draft, and we understand it is 
being reviewed internally in the OMB or wherever it might be. I 
don't understand if it is internally or if it is at the OMB. 
Regardless of where it is, could we at least see an executive 
summary of that, the Members of this committee?
    Mr. Jamison. Well, we are working hard, as I mentioned 
earlier, to get the full report released, and I appreciate, 
respectfully, the request for the executive summary.
    I can tell you the reason the executive summary was not 
released is because it has, and actually I think this is a very 
positive part of all the hard work the people at the table here 
have put into this plan, the one thing, the one criteria that I 
really wanted to make sure we had was actual, measurable goals 
for measuring our interoperability in the field. The executive 
summary includes those aggressive, measurable goals. Those 
goals are pre-decisional. It is important it gets reviewed 
completely through the administration. That is why we didn't 
release the executive summary.
    I can commit to you I will continue to try to work to get 
the executive summary released. Hopefully, the report will 
arrive very shortly and make this a moot point. But I 
understand your frustration. We are trying to, respectfully, 
make sure we have got the review for setting those aggressive 
timelines and goals that I think the committee expects.
    We are in this together. We want to get this done. It is a 
partnership across not only the States and locals but the 
Federal Government.
    To address your other point, we have had a working group 
for the ECPC that has had their input on this process as well 
as critical infrastructure. The Partnership Advisory Council is 
a part of the NIP framework that has sector coordinating 
councils and government coordinating councils that have input 
into this process.
    So we take that seriously. We apologize for the delay, and 
we do want to move on.
    Mr. Cuellar. If I was a betting man, I bet we won't even 
get the executive summary. Okay. If I was a betting man.
    One last question, Mr. Alagna, let's say the appropriators 
keep the $30 million for the border pilot program on the 
interoperability cross-border, if that stays on and you all are 
there to participate, how do you envision your pilot program 
involved with Homeland for both the northern and the southern 
borders?
    Mr. Alagna. Okay. Well, clearly, that has got to be a 
competitive process, as was described. I think, based on the 
nature of the threat and the assessment of the vulnerability of 
those facilities or localities should play key into the overall 
decision process for picking candidates for potential 
development of pilot programs.
    Mr. Cuellar. Let me restate this again. I am sorry. 
Hypothetically, how would you see this, from the private 
sector, how do you envision the border pilot programs, both in 
the north and the south?
    Mr. Alagna. From a technical perspective, I think it would 
absolutely prove out the concepts of operations that are 
necessary to support the multiple constituents in that border 
community. You have the locality, the public safety entities 
there in the city, the State. You also have international 
partners. To date, I don't think this has been tried or 
exercised.
    So the ability to put in a technical solution that begins 
to prove concepts around collaboration of multiple partners in 
border areas to include technical approaches that could improve 
interoperability and operability, I think that needs to be 
done. It should be a high priority.
    Mr. Cuellar. Okay.
    Any other questions?
    I recognize Ms. Christensen from the Virgin Islands for 5 
minutes.
    Mrs. Christensen. Thank you.
    Just two questions, Mr. Secretary and Mr. Director, is 
there a budget that accompanies the NECP, and, if so, what is 
it?
    Mr. Essid. Well, there is not a budget per se, because the 
national plan is a national strategy document that is really 
taking and leveraging a lot of existing efforts that are 
already in existing budgets and putting it all together in one 
strategic document for the first time ever. So a lot of these 
things are already budgeted for. A lot of them, a lot of the 
initiatives in the national plan are focused on coordination 
and partnership building between local to local, or local to 
State, or State to State, or Federal agency.
    So a lot of them are in existing budgets as far as the 
Federal Government or the Federal agencies involved are, and a 
lot of State and local involvement----
    Mrs. Christensen. But once the plan is out, don't you plan 
to look at how much it really costs to implement it? Much of 
the other testimony, for example, Mr. Mirgon, the chief and Mr. 
Alagna talked about the lack of funding. So isn't it in your 
plans to look at how much the implementation of the budget will 
actually cost, the plan will actually cost?
    Mr. Essid. Yes, ma'am, in the future we will.
    Once we have the plan, we will be tracking what it costs to 
implement those initiatives. It is all over the place. You are 
talking grant funds. But a lot of States and locals spend a lot 
more money than we could ever give out in grants on this 
problem. I mean, since most of the infrastructure is owned at 
the local level, they are spending so much money out of their 
own general funds on communication systems. So we can't really 
track that with our grants tracking per se.
    But with the partnerships we are developing through the 
State-wide planning efforts and the interoperability 
coordinators popping up all over the Nation--I know New York 
State just hired a new one just recently--we are starting to 
build those relationships where we can gather that information, 
not only what they are spending in grants but what they are 
spending in the general fund on communications.
    Mrs. Christensen. I have another question for you, Mr. 
Essid. The regional emergency communications coordinating 
working group is supposed to contribute to the NECP to promote 
the regional application of interoperable communication 
systems. The post-Katrina reform act made it clear that the 
director of OEC is statutorily responsible for coordinating the 
RECC working group within FEMA regional offices. But during a 
recent committee briefing, there was some confusion about 
whether it is the OEC or FEMA that is responsible for the RECC 
working group.
    Could you just explain to the subcommittee what you 
understand about your office's responsibility as it relates to 
the RECC?
    Mr. Essid. Yes, ma'am.
    As mentioned earlier, we are really coordinating with FEMA 
on these regional groups. You know, the roles and 
responsibilities of the Office of Emergency Communications in 
FEMA as far as these regional groups are set forth in section 
1805 of the Homeland Security of 2002, although these regional 
groups are to be administered by FEMA and the receipt the 
annual progress reports is the only role explicitly identified 
for the Office of Emergency Communications in section 1805; OEC 
and FEMA though are coordinating more closely than this when we 
are establishing these groups. We intend to play an active role 
in these groups, and we are, as they are being established 
throughout the Nation. We are going to co-locate our regional 
coordinators with FEMA, and we are working on how our positions 
out there and these FEMA regional offices could be 
complimentary as to their mission and how FEMA can help us with 
our mission as far as the technical assistance we offer 
throughout the Nation, any policy or support, or any support 
for the States in general.
    Mrs. Christensen. But where does the buck stop in the 
coordination, at FEMA or at your desk?
    Mr. Essid. The way we see it is that FEMA is to establish 
these regional groups. That is the way the legislation reads, 
to FEMA and to us. However, we are, again, coordinating with 
them.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Cuellar. Okay. Thank you.
    Ms. Lowey, any other questions?
    Mrs. Lowey. I just want to say thank you to you all. We 
appreciate your great service to our country.
    I just hope that wherever this plan is in the bureaucracy, 
you who have worked so hard can say that the committee wants 
that plan now.
    Thank you very much.
    Mr. Cuellar. Thank you, both of you.
    The only thing I would ask you, since you all are taking 
extra time to finish the reports, if you do have performance 
measures and objectives and inputs and outputs, I just happened 
to do my dissertation years ago on performance-based budgeting, 
so on the performance measures, please don't give us 
performance measures that measure activity, that is how many 
radios they have. I mean, I want to see measures of results.
    So I see your staff back there saying that that is not 
going to be included. I emphasize that, because I have seen 
performance measures that all they do is measure how many 
pencils we have, how many radios we have, how many people we 
have. Forget about that. Measure the actual results, and I 
think that will be appreciated.
    Again, I do want to thank you, because I know it has been a 
lot of work trying to put this plan together, Mr. Secretary, 
Mr. Essid, Mr. Mirgon, Chief Werner, of course, Mr. Alagna, 
everybody in the private sector that put it together, I know it 
is a lot of--I think you sense a little frustration from both 
sides over here on getting this done.
    We are almost there. So I encourage you, if you need any 
help from us, talk to us, talk to our staff if we can be of any 
assistance. But I do want to thank you for the service you 
provided.
    Thank you.
    At this time, I want to thank all the witnesses for their 
testimony and the Members for their questions. The Members of 
the subcommittee may have additional questions. I ask the 
witnesses to please respond to them as soon as possible in 
writing to those questions.
    Having no further business, the hearing is adjourned. Thank 
you.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Ranking Member Charles W. Dent for Robert D. Jamison, 
    Under Secretary, National Protection and Programs Directorate, 
                    Department of Homeland Security

    Question 1a. During the hearing, Ms. Lowey commented that the 
current placement of the Office of Emergency Communications within the 
National Protection and Programs Directorate may not be appropriate 
given the size and importance of its mission. Mr. Mirgon, Director of 
Technology Services for Douglas County, Nevada, stated his support for 
elevating the Office to signal its importance to leadership at the 
State and local level and to help garner the attention the issue of 
interoperability deserves.
    Do you believe that the Office of Emergency Communications receives 
adequate support and leadership attention at its current organizational 
level?
    Answer. Response was not provided at the time of publication.

    Question 1b. Would elevating the Office of Emergency Communications 
improve the Department's ability to enhance interoperable emergency 
communications and also increase its available resources?
    Answer. Response was not provided at the time of publication.

    Question 1c. Do you have plans to elevate the Director of the 
Office of Emergency Communications to an SES-level position?
    Answer. Response was not provided at the time of publication.

    Question 2. What are the estimated implementation costs for the 
National Emergency Communications Plan?
    Answer. Response was not provided at the time of publication.

    Questions From Ranking Member Charles W. Dent for Chris Essid, 
 Director, Office of Emergency Communications, Department of Homeland 
                                Security

    Question 1. As part of the State-wide Communication 
Interoperability Plans, States are expected to hire a dedicated 
interoperable communications coordinator. How will these positions work 
with the Office of Emergency Communications' interoperability 
coordinators and FEMA's emergency communications coordinators?
    Answer. Response was not provided at the time of publication.

    Question 2a. The Regional Emergency Communications Coordination 
working groups seek to provide assessments of local emergency 
communications systems' survivability, sustainability, and 
interoperability.
    Has a Memorandum of Understanding between the Office of Emergency 
Communications and FEMA been developed to clarify their respective 
roles and responsibilities for the Regional Emergency Communications 
Coordination working groups?
    Answer. Response was not provided at the time of publication.

    Question 2b. Can you please provide an update on the status of the 
Regional Emergency Communications Coordination working groups' annual 
report?
    Answer. Response was not provided at the time of publication.

    Question 2c. Have you seen any trends in these annual reports that 
may require greater Federal involvement?
    Answer. Response was not provided at the time of publication.

    Question 3. The Implementing Recommendations of the 9/11 Act (Pub. 
L. 110-53) directed the OEC to establish cross-border interoperable 
communications demonstration projects. The 9/11 Act specified that at 
least six communities along international borders--three along the 
northern border and three along the southern border--are to be selected 
to participate in demonstration projects to identify solutions to 
facilitate cross-border interoperability for emergency response 
providers, identify joint-use equipment to ensure communications, and 
provide technical assistance to enable emergency response agencies to 
adapt to a variety of environments.
    Can you provide an estimated timeline for when we can expect the 
competitive selection process for the demonstration projects to begin?
    Answer. Response was not provided at the time of publication.

   Questions From Ranking Member Charles W. Dent for Richard Mirgon, 
Director, Technology Services, Douglas County, Minden, Nevada on Behalf 
  of the Association of Public-Safety Communications Officials (APCO) 
                             International

    Question 1a. SAFECOM is a communications program within DHS that 
provides research, development, testing and evaluation, guidance, 
tools, and templates on communications-related issues to local, tribal, 
State, and Federal emergency response agencies.
    Has your office or county leveraged the work done by SAFECOM?
    Answer. Response was not provided at the time of publication.

    Question 1b. Have its offerings been beneficial to increasing the 
ability to provide interoperable communications to first responders?
    Answer. Response was not provided at the time of publication.

    Question 2a. One of the challenges faced by first responders and 
public safety officials across the country as they work toward 
interoperable communications is the issue of cultural change. In the 
past, decisions regarding communications were made by each agency 
without regard to the need to coordinate with other agencies.
    What do you believe is the major challenge to achieving full 
emergency communications interoperability?
    Answer. Response was not provided at the time of publication.

    Question 2b. What metrics or programs would you recommend to ensure 
that national planning is being implemented at the State and local 
operational level?
    Answer. Response was not provided at the time of publication.

 Questions From Ranking Member Charles W. Dent for Charles L. Werner, 
  EFO/CFO, Charlottesville Fire Department, Charlottesville, Virginia

    Question 1a. The Interoperable Emergency Communications Grant 
Program calls for the establishment of common operating protocols 
through the development of standard operating procedures, consistent 
use of interoperability channels, plain language protocols, and common 
channel naming.
    Would it be reasonable to set a time frame by which all 
communication systems can be operated in a uniform manner?
    Answer. Response was not provided at the time of publication.

    Question 1b. What more can be done at not only the State level but 
at the local and tribal levels to facilitate this conformity?
    Answer. Response was not provided at the time of publication.

    Question 1c. Is sufficient planning taking place between State and 
local authorities with regard to the development of emergency responder 
skills?
    Answer. Response was not provided at the time of publication.

    Question 1d. Are coordinated training programs and common 
educational practices being developed for emergency responders?
    Answer. Response was not provided at the time of publication.

    Question 2a. One of the challenges faced by first responders and 
public safety officials across the country as they work toward 
interoperable communications is the issue of cultural change. In the 
past, decisions regarding communications were made by each agency 
without regard to the need to coordinate with other agencies.
    What do you believe is the major challenge to achieving full 
emergency communications interoperability?
    Answer. Response was not provided at the time of publication.

    Question 2b. What metrics or programs would you recommend to ensure 
that national planning is being implemented at the State and local 
operational level?
    Answer. Response was not provided at the time of publication.

 Questions From Ranking Member Charles W. Dent for Michael L. Alagna, 
Director, Homeland Security Strategic Initiatives and Policy, Motorola, 
                                  Inc.

    Question 1a. The National Emergency Communications Plan (NECP) is 
intended to provide recommendations to support and promote the ability 
of practitioners and Government officials to continue communications 
capabilities in the event of a disaster and to ensure that the Nation 
continues to pursue the goal of fully interoperable communications.
    What was Motorola's involvement in the development of the National 
Emergency Communications Plan?
    Answer. Motorola and industry broadly supported the Office of 
Emergency Communications (OEC) through the Critical Infrastructure 
Partnership Advisory Council (CIPAC), which included representatives 
from the Communications Sector Coordinating Council. The partnership 
provided by the CIPAC allowed industry and Government the opportunity 
to work together and exchange information. The purpose of a 
Communications Sector Coordinating Council which includes 
representatives from 38 companies and associations (manufacturers, 
owners, operators, cable, commercial broadcasters, information service 
providers, satellite, wireless & wireline) is to foster and facilitate 
the coordination of sector-wide activities and initiatives designed to 
improve physical and cybersecurity of the critical infrastructures and 
related information flow within the sector, cross-sector and with DHS. 
Motorola chairs the CSCC State and Local Working Group, which was given 
the charge of coordinating industry involvement with the development of 
the NECP.
    Industry representatives from the National Security 
Telecommunications Advisory Committee (NSTAC includes representatives 
from 22 companies and associations), also supported the OEC. The Office 
of Emergency Communications drew heavily from existing emergency 
communications documentation and initiatives. These source documents 
were key drivers for the NECP's assessment of the current state-of-
emergency communications and also helped shape the Plan's strategic 
goals, objectives, and initiatives. The NSTAC report on Emergency 
Communications and Interoperability anticipated incorporating critical 
elements into the NECP, with Motorola and AT&T co-chairing the 
Emergency Communications and Interoperability Task Force (ECITF).
    Industry/Motorola's involvement in the development of the National 
Emergency Communications Plan included review of the overall framework, 
its goals and objectives, and the varied initiatives of the plan. 
Industry perspectives were compiled; comments were prepared by the 
Communications Sector Coordinating Council State and Local Working 
Group and approved by the CSCC prior to submission to the OEC.

    Question 1b. Is your perception that industry, as a whole, was 
actively engaged throughout the development process and that your input 
was incorporated into the document?
    Answer. Federally-approved advisory committees were engaged during 
the development of the NECP, providing broad industry participation. 
The accelerated pace of development of the plan stressed industry's 
advisory role to review and develop recommendations to the process in a 
timely manner; however industry input was incorporated into the 
document, for example private sector support to communications during 
emergencies and recovery efforts and involvement in standards 
development, advanced communications technologies, and services 
development and deployment.

    Question 2a. One of the challenges faced by first responders and 
public safety officials across the country as they work toward 
interoperable communications is the issue of cultural change. In the 
past, decisions regarding communications were made by each agency 
without regard to the need to coordinate with other agencies.
    What do you believe is the major challenge to achieving full 
emergency communications interoperability?
    Answer. Achieving emergency communications capabilities and 
interoperability requires the sustained commitment of substantial 
resources. There is progress across the spectrum of challenges to 
interoperability: human factors, technical and financial. The emergency 
response community views the following as the key issues:
  <bullet> Incompatible and aging communications equipment;
  <bullet> Limited and fragmented budget cycles and funding;
  <bullet> Limited and fragmented planning and coordination;
  <bullet> Limited and fragmented radio spectrum;
  <bullet> And limited equipment standards.
    The strengthened Federal leadership through grants, outreach and 
guidance has greatly improved the support to State and local officials. 
An increased level of coordination and cooperation by establishing 
multidisciplinary, cross-jurisdictional governance structures has 
improved regional planning and collaboration. Much of the 
communications equipment used by emergency responders is being upgraded 
to the Project 25 (P25) standards-based digital equipment, which 
improves communication between State and local governments and between 
neighboring local jurisdictions. The Digital TV transition legislation 
enacted by Congress makes available new spectrum for critically 
important public safety interoperable communications and supports the 
objective of providing public safety with Nation-wide interoperable 
broadband data. While there is progress across all fronts on achieving 
full emergency communications interoperability, continued funding to 
replace aging and non-upgradeable communications equipment and maintain 
a sustained, consistent and predictable budget cycle remain a top 
priority.

    Question 2b. What metrics or programs would you recommend to ensure 
that the national plan, once complete, is being implemented at the 
State and local operational level?
    Answer. Continued targeted Federal grants will ensure the national 
plan is being implemented at the State and local operational level and 
to assist the national plan in meeting its goals of demonstrating 
response-level emergency communications within specified time frames 
for routine and significant events involving multiple jurisdictions and 
agencies.

    Question 3. How does your company interact with the Department 
regarding interoperable emergency communications? Would you make any 
recommendations to improve this relationship?
    Answer. There are numerous organizations within the Department of 
Homeland Security and across the Federal Government that industry 
interacts with regarding interoperable emergency communications. For 
example, the Science and Technology Directorate (R&D), the SAFECOM 
program, the Office of Emergency Communications, the Office of 
Interoperability and Compatibility (OIC is working with NIST and the 
Institute for Telecommunication Sciences (ITS) to support the efforts 
of the emergency response community and the private sector), the 
Emergency Communications Preparedness Center (ECPC), FEMA Disaster 
Emergency Communications (DEC) Division, the National Communications 
System (NCS) and the Federal Partnership for Interoperable 
Communications (FPIC).
    A recommendation to improve industry's interaction with the 
Department would be to clarify and consolidate Federal Government 
interoperable emergency communications roles and responsibilities. 
Specifically, additional policy guidance is required to clearly 
delineate the interoperable emergency communications roles and 
functions of the new Office of Emergency Communications, as established 
by the Department of Homeland Security Appropriations Act of 2007, and 
any other DHS organization (e.g., Science & Technology Directorate, 
Federal Emergency Management Agency) with a role or responsibility in 
the area of interoperable emergency communications. Also consideration 
should be given to elevating the Office of Emergency Communications 
within the organizational hierarchy to ensure executive oversight 
across the Federal Government for a fully coordinated, integrated, and 
interoperable emergency response communications function and 
capability.

                                 <all>

</pre></body></html>
